         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL


                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Decisions to Delete
       Superfund Sites Should Undergo
       Quality Assurance Review
       Report No. 08-P-0235

       August 20, 2008
Report Contributors:              Carolyn Copper
                                  Chris Dunlap
                                  Bryan Holtrop
                                  Stephen Schanamann
                                  Gerry Snyder
                                  Mike Owen




Abbreviations

CERCLA 	     Comprehensive Environmental Response, Compensation, and Liability Act
CERCLIS 	    Comprehensive Environmental Response, Compensation, and Liability
             Information System
EPA 	        U.S. Environmental Protection Agency
GAO 	        Government Accountability Office
MCL	         Maximum Contaminant Level
NCP 	        National Oil and Hazardous Substances Pollution Contingency Plan
NPL 	        National Priorities List
OIG 	        Office of Inspector General
OSWER 	      Office of Solid Waste and Emergency Response
PADEP 	      Pennsylvania Department of Environmental Protection
ROD 	        Record of Decision
ug/l 	       micrograms per liter
YCSWRA 	     York County Solid Waste and Refuse Agency
                       U.S. Environmental Protection Agency 	                                              08-P-0235
                                                                                                      August 20, 2008
                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment


Why We Did This Review            EPA Decisions to Delete Superfund Sites
We conducted this review to
                                  Should Undergo Quality Assurance Review
determine whether deletions
from the Superfund National        What We Found
Priorities List (NPL) have
(1) consistently followed U.S.    As of September 2007, EPA had deleted 322 sites from the NPL. Among the
Environmental Protection          eight sites we reviewed, documentation for the Agency’s decision to delete three
Agency (EPA) guidance and         sites was not consistent with EPA guidance. The Agency’s decisions for two of
met the National Contingency      these sites were also not consistent with criteria specified by EPA guidance and
Plan (NCP) criteria, and          not supported by data and analysis. EPA did not ensure cleanup activities and
(2) been supported by             goals were complete and remedies were fully protecting human health and the
complete and high quality data    environment before deleting these two sites.
and analysis which provide
reasonable assurance that         Response actions are ongoing at one of the three sites where the decisions did not
public health and the             meet the criteria specified by EPA guidance. However, EPA needs more data on
environment are protected.        the response before it will be able to determine whether this site remains able to
                                  protect human health and the environment. For the second site, EPA has not
Background                        ensured that appropriate response actions were taken to address all regulated
                                  substances at the site and that monitoring requirements were met. EPA also has
Generally, EPA may delete a       not ensured that the cleanup requirements were met after the third site was deleted.
site from the NPL either when
all appropriate responses         EPA has conducted limited national oversight of deletion decisions made by
under the Comprehensive           EPA’s regional offices. National review of deletions is limited because regions do
Environmental Response,           not always submit required information. When reviews of decisions and
Compensation, and Liability       documents did occur, EPA did not verify that sites met criteria specified in
Act have been implemented or      Agency guidance. Other reasons for the deletion problems include
a response under the Act is not   misinterpretation or noncompliance with deletion requirements.
appropriate.
                                   What We Recommend
For further information,
contact our Office of             We recommended that EPA implement a national quality assurance process that
Congressional and Public          ensures deletion decisions meet criteria specified by EPA guidance and the NCP
Liaison at (202) 566-2391.        and are supported. We also recommended actions to ensure better support for
                                  deletion decisions and oversight of ongoing cleanup activities at the deleted sites
To view the full report,
click on the following link:      we reviewed. EPA agreed with our recommendations. The recommendations will
www.epa.gov/oig/reports/2008/     remain open until they are fully implemented.
20080820-08-P-0235.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         August 20, 2008

MEMORANDUM

SUBJECT:	              EPA Decisions to Delete Superfund Sites Should Undergo
                       Quality Assurance Review
                       Report No. 08-P-0235


FROM:	                 Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:	                   Susan Parker Bodine
                       Assistant Administrator
                       Office of Solid Waste and Emergency Response

                       Donald S. Welsh 

                       Region 3 Administrator 


                       Lynn Buhl       

                       Region 5 Administrator 



This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. The OIG
responded to the Agency’s draft report comments by making changes to the report and providing
responses to EPA, as appropriate. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determination on matters in this report will be
made by EPA managers in accordance with established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily billing rates in effect at the time – is $809,869.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response should include a corrective action plan for agreed
upon actions, including milestone dates. We have no objections to the further release of this
report to the public. This report will be available at http://www.epa.gov.oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at (202) 566-0829 or
copper.carolyn@epa.gov; or Mike Owen, Project Manager, at (206) 553-2542 or
owen.michael@epa.gov
EPA Decisions to Delete Superfund Sites                                                                                     08-P-0235
Should Undergo Quality Assurance Review



                                  Table of Contents 


Chapters
   1    Introduction ...........................................................................................................      1


                Purpose ..........................................................................................................    1         

                Background ....................................................................................................       1         

                Noteworthy Achievements..............................................................................                 4         

                Prior Evaluations ............................................................................................        4

                Scope and Methodology.................................................................................                4


   2    Superfund Site Deletions Have Not Always Been
            Consistent with EPA Criteria.......................................................................                       6

                Some Deletions Were Inconsistent with Criteria and Not Supported .............                                        6

                Primary Causes for Inconsistent and Unsupported Site Deletions.................                                      10 

                Recent Agency Actions to Improve Deletion Decisions..................................                                12 

                Conclusions....................................................................................................      13         

                Recommendations .........................................................................................            14         

                Agency Comments and OIG Evaluation.........................................................                          15 


   3    EPA Has Not Ensured Appropriate Response Actions
            Have Been Implemented at Some Deleted Sites .......................................                                      17

                Additional Actions Required at the McAdoo Associates Site..........................                                  17 

                EPA’s Remedy Not Fully Implemented at Kummer Sanitary Landfill .............                                         20 

                Recommendations .........................................................................................            21         

                Agency Comments and OIG Evaluation.........................................................                          22 


   Status of Recommendations and Potential Monetary Benefits.................................                                        25     




Appendices
   A    Details on Scope and Methodology.....................................................................                        27

   B    Additional Details on Sites that Were Deleted Before Meeting
        EPA Criteria ...........................................................................................................     29

   C    Agency Comments on Draft Report and OIG Evaluation ..................................                                        35

   D    Distribution ............................................................................................................    53
                                                                                                        08-P-0235 





                                            Chapter 1
                                            Introduction

Purpose
                 This report focuses on the U.S. Environmental Protection Agency’s (EPA’s)
                 deletion activities for Superfund sites listed on the National Priorities List (NPL).
                 We sought to determine whether decisions for deleting sites from the NPL have
                 been consistent with EPA guidance and the National Oil and Hazardous
                 Substances Pollution Contingency Plan (NCP). We addressed two questions:

                      •	 What is the universe of full and partial site deletions?

                      •	 Have site deletions from the NPL (1) consistently followed EPA guidance
                         and met the NCP criteria, and (2) been supported by complete and high
                         quality data and analysis which provide reasonable assurance that public
                         health and the environment are protected?

Background
                 Section 105 of the Comprehensive Environmental Response, Compensation, and
                 Liability Act of 1980 (CERCLA or Superfund), as amended by the Superfund
                 Amendments and Reauthorization Act of 1986, requires EPA to maintain an NPL
                 of uncontrolled hazardous waste sites that have released or pose a threat of release
                 of hazardous substances into the environment. The NCP defines the NPL as the
                 list of priority releases for long-term remedial evaluation and response. As of
                 September 2007, 1,571 sites had been placed on the NPL, and 322 of these sites
                 had been deleted. Portions1 of another 46 sites had also been deleted from the
                 NPL as of September 2007.

                 EPA may delete a site from the NPL when criteria specified in the NCP and
                 Agency Superfund guidance are met. In making the decision to delete a site, the
                 NCP specifies that the Agency shall consider, in consultation with the State,
                 whether any of the following three criteria have been met:

                    1.	 responsible or other parties have implemented all appropriate response
                        actions required;




1
 EPA may delete portions of NPL sites provided that they meet criteria specified by the Agency’s deletion
guidance. A portion may be a defined geographic unit of the site or may be a specific medium at a site, such as
groundwater.


                                                         1

                                                                          08-P-0235 



 2.	 all appropriate EPA-funded responses under CERCLA have been 

     implemented, and no further response action by responsible parties is 

     appropriate; or 

 3.	 the remedial investigation has shown that the release poses no significant
     threat to public health or the environment and, therefore, taking remedial
     measures is not appropriate.

EPA Administrative Policy delegates to the Regional Administrators the authority
to delete sites. EPA’s Office of Solid Waste and Emergency Response (OSWER)
provides national guidance on the Agency’s deletion decisions. EPA’s deletion
guidance (Close Out Procedures for National Priorities List Sites) establishes
steps and documentation for meeting the NCP criteria. The guidance specifies
that a site is eligible for full or partial deletion from the NPL when the following
criteria are met:

    1.	 no further response is required at the site or a portion of the site;
    2.	 all cleanup goals have been achieved; and
    3.	 the site or portion of the site is determined to protect human health and
        the environment.

The major steps and documentation standards that generally apply for a NPL site
deletion are outlined in Table 1.1 below.




                                 2

                                                                                           08-P-0235



Table 1.1. EPA’s Deletion Process

Step                                                Description
1. Complete the final close-out report for site.    The final close-out report describes how the
                                                    cleanup was accomplished and provides the
                                                    overall technical justification for site
                                                    completion. Site completion means that the
                                                    response actions at the site were successful
                                                    and no further Superfund response is required
                                                    to protect human health and the environment.
2. Prepare draft notice of intent to delete.        The Region prepares the draft notice of intent
                                                    to delete and obtains and addresses comments
                                                    from EPA Headquarters and the State.
2. Obtain State concurrence for deletion.           The Region consults with the State and
                                                    requests concurrence on EPA’s intent to delete
                                                    the site. EPA cannot delete a site without the
                                                    State’s concurrence.
3. Compile the deletion docket.                     The Region prepares a deletion docket
                                                    containing all pertinent information supporting
                                                    the deletion recommendation such as the
                                                    cleanup decision document and final close-out
                                                    report. EPA should place the complete docket
                                                    in appropriate regional and local repositories.
4. Publish notice of intent to delete and provide   The Region publishes the notice of intent to
30-day public comment period.                       delete in the Federal Register and a major local
                                                    newspaper of general circulation. The notice
                                                    should include a description of (1) the history of
                                                    the site; (2) response actions addressing the
                                                    contamination; (3) specific cleanup goals,
                                                    criteria, and results; and (4) how the site meets
                                                    deletion criteria.
5. Prepare and place final responsiveness           The Region prepares a responsiveness
summary in the deletion docket and public           summary for all local and national comments
repositories.                                       received. The summary provides detailed
                                                    responses to all comments and is approved by
                                                    the Regional Administrator.
6. Publish notice of deletion                       The Regional Administrator signs the deletion
                                                    notice and EPA publishes it in the Federal
                                                    Register.

Source: OSWER Directive 9320.2-09A-P, January 2000, Close Out Procedures for National Priority Sites

        Deleting a site from the NPL does not mean that EPA cannot conduct additional
        cleanup actions at the site in the future to protect human health and the
        environment. It also does not mean that EPA cannot require a responsible party
        to conduct additional site cleanup actions after deletion. Deleting a site, when
        appropriate, is a management control that helps EPA ensure it is properly
        managing the hundreds of priorities on the NPL.




                                               3

                                                                                                       08-P-0235 



Noteworthy Achievements
                 EPA has several ongoing and planned efforts that should improve the consistency
                 of its deletion decisions. For example, since November 2006, each region has
                 designated a deletions coordinator that is responsible for serving as an expert on
                 the deletion process. Additional details on the Agency’s efforts are discussed in
                 Chapter 2.

Prior Evaluations
                 The Government Accountability Office (GAO) issued the report Improved
                 Effectiveness of Controls at Sites Could Better Protect the Public (GAO-05-163,
                 January 2005), that identified problems with institutional controls2 at a number of
                 sites deleted from the NPL. Among the issues discussed in the report was that
                 EPA often did not ensure that institutional controls were in place before it deleted
                 sites from the NPL.

Scope and Methodology
                 We conducted our evaluation from July 2006 to March 2008 in accordance with
                 generally accepted government auditing standards. Those standards require that
                 we plan and perform the evaluation to obtain sufficient, appropriate evidence to
                 provide a reasonable basis for our findings and conclusions based on our
                 evaluation. We believe that the evidence obtained provides a reasonable basis for
                 our findings and conclusions based on our evaluation objectives.

                 To evaluate the Agency’s process for deleting sites from the NPL, we interviewed
                 officials from OSWER and Regions 3 and 5. We selected a judgment sample of
                 eight of 309 sites deleted from the NPL as of June 2006. We selected sites
                 located in Regions 3 and 5 where information presented in public notices, 5-year
                 review reports, and/or other relevant documents appeared inconsistent with
                 deletion criteria specified by EPA guidance and the NCP. For example, we
                 considered a site condition to be inconsistent with the criteria where the
                 information indicated that human health exposures or contaminated groundwater
                 migration was not under control. We also considered a site condition to be
                 inconsistent with the criteria where cleanup goals were not met or information
                 indicated long-term protection to human health was not achieved. Table 1.2
                 below shows the eight sites in our sample.




2
  EPA defines institutional controls as administrative and legal controls that help to minimize the potential for
human exposures to contamination and protect the integrity of the cleanup remedy. Institutional controls work by
limiting land or resource use and by providing information that helps modify or guide human behavior at properties
where hazardous substances prevent unlimited use and unrestricted exposure.


                                                         4

                                                                        08-P-0235



         Table 1.2. Sample of Sites Deleted from the NPL

         Site                                              Region
         McAdoo Associates                                   3
         Lehigh Electric and Engineering Company             3
         York County Solid Waste and Refuse Authority        3
         Landfill (YCSWRA)
         Enterprise Avenue                                    3
         Kummer Sanitary Landfill                             5
         Southside Sanitary Landfill                          5
         Republic Steel Corporation Quarry                    5
         Omega Hill North Landfill                            5

         Source: EPA OIG

We reviewed key documents and data used to support the deletion decisions.
These documents included EPA cleanup decision documents [i.e., Records of
Decision (RODs)] site sampling data, 5-year review reports, final close-out
reports, deletion dockets, and public notices. Appendix A provides further details
on our scope and methodology, including our review of internal controls.




                                 5

                                                                                   08-P-0235 





                                 Chapter 2
   Superfund Site Deletions Have Not Always Been
           Consistent with EPA Criteria

          Our review of eight sites deleted from the NPL showed that the documentation
          did not meet criteria specified by EPA guidance for three of the sites. The
          Agency’s deletion decisions for two of these sites were also not consistent with
          criteria specified in EPA guidance and not supported by data and analysis.
          Specifically, we found one or more of the following issues for each of the three
          sites:

             •	 The requirements for a final close-out report, deletion docket, and/or
                public notice of the pending deletion action had not been met.
             •	 Cleanup and other requirements (as prescribed in RODs) were not met.

          These issues occurred primarily because the Agency delegated the authority to
          delete sites from the NPL to the regions without providing consistent national
          oversight for deletion decisions. These deletion issues also occurred because the
          regions misinterpreted or did not follow EPA’s guidance. Because of these
          issues, the Agency did not fully inform the public about the cleanup status and/or
          was unable to ensure long-term protection for these sites at the time of deletion.

Some Deletions Were Inconsistent with Criteria and Not Supported
          EPA’s documentation for deletions of three of the eight sites we reviewed did not
          meet criteria specified in Agency guidance. In addition, for two of these three
          sites, the deletion decisions were not consistent with criteria specified by EPA
          guidance and not supported by data and analysis. Table 2.1 identifies the general
          categories of criteria not met. These issues are discussed in more detail below.
           Table 2.1 Types of Criteria Not Met Prior to Site Deletion

                                              Year      Documentation      Cleanup
                                            Deleted     Standards Not    Requirements
           Site                 Region     from NPL          Met           Not Met
           YCSWRA                 3           2005            X                X
           McAdoo Associates      3           2001            X                X
           Kummer Sanitary        5           1996            X
           Landfill

           Source: EPA OIG




                                            6

                                                                         08-P-0235 



Deletion Decisions Did Not Meet Documentation Standards

As shown in Table 2.1, Regions 3 and 5 did not meet the documentation standards
specified by EPA’s deletion guidance for three of the sites we reviewed. EPA’s
guidance establishes specific standards for supporting the Agency’s decision to
delete a site from the NPL. These standards include completion of a final close­
out report, deletion docket, and notice of intent to delete. We found the following
documentation issues for three of the eight sites reviewed:

   •	 A final close-out report was either not prepared or was not complete for
      two sites. According to the guidance, the final close-out report should
      contain details showing that all response actions at the site have been
      successfully completed. The guidance specifies that the report should
      include sufficient details to show cleanup levels have been met and all
      necessary institutional controls have been implemented. A final close-out
      report was not prepared for the YCSWRA site. Although a final close-out
      report was prepared for the McAdoo Associates site, it was not complete.
      This report was incomplete because it did not include groundwater data
      showing that cleanup goals were met.

   •	 A deletion docket was not prepared or prepared late for the YCSWRA and
      Kummer Sanitary Landfill sites, respectively. EPA’s guidance specifies
      that the deletion docket should be compiled and made available to the
      public before the Agency publishes the notice of intent to delete. The
      guidance also specifies that the docket contain the applicable documents
      supporting the deletion decision. These supporting documents generally
      include site investigation studies, ROD(s), State concurrence letter on
      deletion, and the final close-out report for the site. At the time of our
      review, Region 3 had not prepared the docket for the YCSWRA site. We
      found that the docket for the Kummer Sanitary Landfill site was prepared
      more than 3 months after the site was deleted. Further, this docket did not
      include any of the information specified by the deletion guidance.

   •	 The notices of intent to delete for the three sites were not complete
      because they either did not include a description of the cleanup goals and
      relevant sampling results or clearly disclose the cleanup status of the site.
      EPA’s guidance specifies that the notice include this information. The
      notice for the YCSWRA and McAdoo Associates sites did not discuss the
      cleanup goals and the relevant sampling results. Although the notice for
      the Kummer Sanitary Landfill site included a description of the response
      actions, it did not clearly disclose that the groundwater cleanup would be
      implemented later by the State of Minnesota under its Landfill Cleanup
      Law. Instead, the notice identified that “all work that could be expected
      under a State order or under State closure requirements has been
      completed” and no further response action under CERCLA is appropriate
      to protect human health and the environment. We also found that the State


                                 7

                                                                           08-P-0235 



       had not fully implemented the groundwater response specified by the
       ROD for Kummer Sanitary Landfill site after the site was deleted. This
       issue is discussed further in Chapter 3.

Cleanup Requirements Were Not Met Before Sites Were Deleted

The YCSWRA and McAdoo Associates sites were also deleted from the NPL
before meeting cleanup requirements. The deletion decisions for these sites were
also not supported by data and analysis. EPA’s guidance specifies that a site is
eligible for full or partial deletion from the NPL when:

   •   no further response is required at the site or a portion of the site,
   •   all cleanup goals have been met, and
   •   the site or portion of the site protects human health and the environment.

The cleanup issues for each site are discussed below and more details on the
issues are provided in Appendix B.

YCSWRA Site

Region 3 deleted this site before groundwater cleanup requirements specified by
the ROD were met. The Region’s deletion notices for the site reported that all
appropriate CERCLA responses had been completed and no further response
actions, other than operation and maintenance of the remedy, were necessary.
However, this information was not supported because the groundwater cleanup
was not completed at the time the site was deleted. Rather, the Region removed
the groundwater response actions from the ROD during 2004. The Region
removed these actions to transfer the cleanup to the State of Pennsylvania and
delete the site from the NPL. According to the deletion notices, the groundwater
response actions were removed for three primary reasons. First, a 1984
agreement between the State and responsible party also required the response
actions. Second, EPA expects, based on past performance, the responsible party
will continue the responses under the State’s oversight. Third, the responsible
party is required under a CERCLA consent order to report to EPA all actions
taken to comply with the agreement with the State.

Despite the Region’s justification for deleting the site, we found that the ROD
continues to require restoration of the groundwater at the site to its beneficial use
by treating the contaminated groundwater to the more stringent of background or
maximum contaminant levels (MCLs). The ROD also continues to require a
monitoring program to assess the effectiveness of the groundwater treatment
system and its impact on surface water, sediments, and wetland habitat. These
requirements are necessary to protect human health and the environment and
should be met to delete the site. The most recent groundwater sampling at the site
before deletion occurred in 2004. This sampling data showed that three
contaminants of concern had not met MCLs. In addition, the Region had not


                                  8

                                                                                                  08-P-0235 



                determined whether background contamination levels were more stringent than
                MCLs as required by the ROD.

                The Region’s deletion decision was also not supported by analysis. According to
                the Region 3 attorney involved in the deletion decision, the cleanup goals for the
                ground water response actions in the ROD were no longer relevant after the
                Region modified the document in 2004. We found that the cleanup goals in the
                1984 agreement between the State and the responsible party are less stringent than
                the goals removed from the ROD. The cleanup goals removed from the ROD
                required that the levels for 15 contaminants of concern be reduced to the more
                stringent of background or MCLs for a period of 12 consecutive quarters.
                However, the cleanup goals under the 1984 agreement require the cleanup of only
                four of these contaminants of concern. Further, the cleanup goals in the 1984
                agreement require that the levels for these four contaminants be reduced to MCLs
                for a period of 1 year. EPA’s ROD guidance specifies that the Agency include in
                the modification a detailed analysis showing that the ROD continues to meet
                CERCLA requirements when primary response actions and cleanup goals are
                removed. The Region’s 2004 ROD modification did not include this detailed
                analysis. As a result, we were not able to verify that the response action under the
                1984 agreement will provide the level of protection to human health and the
                environment that was required by the ROD before it was modified in 2004.

                The cleanup goals in the 1984 agreement are also inconsistent with the remaining
                cleanup requirements in the ROD. The ROD continues to require restoring the
                contaminated groundwater to the more stringent of background or MCLs. Since
                the site was deleted from the NPL, response actions at the site have continued
                under the 1984 agreement. However, the most recent groundwater sampling
                results available during our review (2006) showed that the remedy for the site had
                not yet met the cleanup requirements specified by the ROD. Two contaminants of
                concern were at levels approximately 14 times the MCL. Additionally, Region 3
                completed a 5-year review3 of the site during 2007, but was unable to make a
                protectiveness determination. The Region was unable to make this determination
                because:

                     •	 monitoring to assess the groundwater treatment system’s impact on
                        surface water, sediments, and wetland habitat has not been done as
                        required by the ROD; and
                     •	 vapor intrusion to the homes near the site from the groundwater
                        contamination is a potential issue requiring further investigation.

                The Region’s 5-year review report includes recommendations and milestones for
                resolving these issues by 2009. According to the report, the Region will make a
                protectiveness determination and issue an addendum to the 2007 5-year review
                report by December 2009.
3
 CERCLA requires the evaluation of the implementation and performance of Superfund remedies every five years
where remedial actions leave hazardous substances, pollutants, or contaminants on site.


                                                      9

                                                                                   08-P-0235 



          McAdoo Associates Site

          The deletion notices for the McAdoo Associates site reported that Region 3 had
          implemented all appropriate responses under CERCLA. However, sampling data
          showed that groundwater cleanup goals specified by the ROD had not been met
          for four contaminants of concern at a portion of the site (Operable Unit 2). Site
          records also showed that the Region had not established a cleanup goal for a fifth
          contaminant of concern as required by the ROD.

          The Region’s conclusions in the final close-out report and notices of intent to
          delete for Operable Unit 2 were unsupported. The Region concluded in these
          documents that it could delete the operable unit because most of the site
          contaminants exceeding cleanup goals were residuals of gasoline and fuel oil and
          were not contaminants of concern under CERCLA. The documents stated that the
          Region based this conclusion on a thorough evaluation of sampling data. The
          Region also concluded in the documents that another contaminant was present at
          concentrations slightly above the cleanup goal. However, we could not confirm
          these findings because the Region did not document the analyses supporting its
          conclusions, and the ROD continues to require groundwater monitoring and
          attaining the cleanup goals.

          The most recent groundwater sampling results (2006) for Operable Unit 2 showed
          that groundwater cleanup goals for three contaminants of concern listed in the
          ROD had not yet been met. Although the operable unit was deleted before
          cleanup goals had been met, we found that the Region and the State have not yet
          agreed on appropriate response actions to address and monitor the remaining
          contamination. However, the unit appears to protect human health in the short-
          term because nearby residents receive potable water from municipal water
          sources. We discuss these response issues further in Chapter 3.

Primary Causes for Inconsistent and Unsupported Site Deletions
          These issues occurred primarily because the Agency delegated the authority to
          delete sites to the regions without providing consistent national oversight for
          deletion decisions. These issues also occurred because EPA’s deletion guidance
          was misinterpreted or not followed by Regions 3 and 5.

          EPA’s deletion guidance specifies that OSWER is required to review the regions’
          notices of intent to delete to ensure national consistency and completeness.
          Although the guidance establishes a national review process, OSWER’s quality
          assurance activities have not provided reasonable assurance that sites meet
          Agency criteria before regions delete sites from the NPL. According to OSWER
          managers, OSWER reviews all notices of intent to delete that the regions submit
          to it and provides comments as appropriate. However, it indicated that the
          regions do not always submit the notices to OSWER for review. OSWER staff
          also indicated that their reviews of the notices did not verify that sites met the


                                          10 

                                                                         08-P-0235 



deletion criteria specified in EPA’s guidance. For example, these reviews did not
verify that all cleanup goals and other requirements specified in the ROD have
been met and included in the deletion notices. We were unable to evaluate the
scope and depth of the Agency's reviews of the deletion notices because these
reviews were generally not documented. The deletion issues we identified show
that the Agency's review activities have not ensured that deletion decisions meet
the criteria specified in EPA's deletion guidance.

Another contributing cause for inconsistent and unsupported deletion decisions
was that criteria specified by EPA’s guidance either was misinterpreted or not
followed by the regions. Our discussions with Region 3 and 5 managers and staff
disclosed that documentation problems with final close-out reports, deletion
dockets, and notices of intent to delete occurred because they either
misinterpreted or did not follow EPA’s deletion guidance. A third contributing
cause was that Region 3 managers and staff indicated that changes in remedial
project managers contributed to missing and incomplete deletion records for the
YCSWRA and McAdoo Associates sites. A Region 5 manager said that the
Region did not include more specific details on the cleanup at the Kummer
Sanitary Landfill site primarily because the notice of intent to delete identified
that the State of Minnesota had assumed responsibility for the site.

With regard to the deletion decision for the YCSWRA site, the Region 3
Administrator said in a written response to our preliminary evaluation results that
the site was deleted because the Region determined that all appropriate response
actions under CERCLA had been completed and no further response actions were
necessary under the Act. The Regional Administrator explained that the Region
modified the ROD to eliminate the groundwater cleanup as a Federal requirement.
The Regional Administrator also said that the cleanup goals were no longer
relevant when the groundwater response was removed from the ROD. However,
the Region stated in the modification that the scope, performance, cost, and
objectives of the ROD were not fundamentally altered. The stated primary
objective of the ROD is to restore contaminated ground water to its beneficial use
by treating the contaminated ground water to background levels or to MCLs,
whichever is more stringent. Therefore, the overall cleanup objective and
requirements were not eliminated by the modification. In addition, the
monitoring requirements for evaluating the effectiveness of the groundwater
cleanup were not eliminated from the ROD and were not met before the site was
deleted.

Region 3 also did not follow criteria specified by EPA’s guidance with regard to
the deletion decision for the McAdoo Associates site. Region 3 managers told us
that the Region’s decision to delete the McAdoo Associates site was appropriate.
However, they acknowledged that the Region should have revised relevant
cleanup documents to address changes in the remedy for Operable Unit 2 and
demonstrate support for the deletion decision and satisfaction of the Agency’s
deletion requirements. According to Region 3 managers, the Region had not



                                11 

                                                                                    08-P-0235 



          revised some documents because they thought that the remedy change was fully
          disclosed in the final close-out report and notice of intent to delete. The managers
          also told us that the Region would make appropriate revisions to better support
          the deletion decision as part of its efforts to address issues identified during its
          2005 5-year review of the unit. In addition, Region 3 managers told us that the
          Region planned to establish an internal deletions coordinator to ensure that future
          site deletions are consistent with EPA requirements.

Recent Agency Actions to Improve Deletion Decisions
          OSWER has taken several steps since January 2000 when it issued the most
          recent update to EPA’s deletion guidance. These actions, once fully
          implemented, should assist the Agency with establishing management controls
          that ensure deletion activities are consistent with the criteria specified in EPA
          guidance. OSWER’s actions include:

             •	 Since approximately November 2005, all EPA notices of intent to delete
                and notices of deletion are now published in the Federal Docket
                Management System. These deletion notices are available electronically
                to the public through www.regulations.gov. In addition, the regions are
                now responsible for ensuring that all supporting materials for deletion
                dockets are online or referenced.

             •	 OSWER requested in November 2006 that each region designate a
                deletions coordinator. The deletions coordinators have several
                responsibilities. One is to ensure that deletion docket materials are
                available electronically before notices of intent to delete are published.
                The coordinators are also responsible for serving as a deletions expert for
                the region. In addition, they serve as a liaison between the region,
                OSWER and other regions for national discussions involving deletions
                issues. The coordinators are also required to attend Federal Docket
                Management System rule writer training and assist with populating the
                deletions dockets in the system. This effort is intended to ensure that
                portions of the deletion dockets are available online and at the regional
                and local repositories during the public comment period.

             •	 Since January 2000, OSWER has presented training on EPA’s deletion
                guidance in all 10 regions and at two national conferences. OSWER will
                offer the training nationwide again during 2007 and 2008. OSWER
                reported that it has already provided this training to Regions 1 and 7.

             •	 In early 2007, OSWER staff with review responsibilities for draft deletion
                documents received refresher training on document reviews. The purpose
                of the training was to promote national consistency when reviewing draft
                deletions documents.



                                           12 

                                                                                  08-P-0235 



              •	 In September 2007, EPA’s Office of Regulatory Policy and Management
                 and OSWER agreed that deletion notices from a region will only be
                 published after receiving clearance from OSWER. The Assistant
                 Administrator for OSWER informed us in June 2008 that OSWER has
                 also proposed a change in the NPL site deletion delegation. According to
                 the Assistant Administrator, this change will require OSWER’s formal
                 concurrence on the notice of intent to delete before the document is signed
                 by the Regional Administrator. OSWER plans to conduct quality
                 assurance reviews of the notices and deletion dockets to ensure they meet
                 EPA’s deletion criteria before providing clearance for publication. An
                 OSWER manager stated that the delegation change should be
                 implemented in the Summer of 2008.

              •	 OSWER developed deletion document templates to incorporate Federal
                 Docket Management System language, increase consistency in the various
                 documents, and more clearly identify the site-specific technical content
                 required for deletion documents. OSWER finalized and made these
                 templates available to the regions in May 2008.

              •	 OSWER’s Assessment and Remediation Division was reorganized in June
                 2008. A key component of the reorganization is that post construction
                 completion activities, including NPL deletion, will be consolidated into
                 one branch. According to OSWER managers, this action will improve
                 quality assurance activities. Training on reviewing deletion documents for
                 staff in the new branch was conducted in October 2007.

Conclusions
         At three deleted Superfund sites we reviewed, EPA has not consistently applied
         and implemented the deletion criteria outlined in Agency guidance. These site
         deletions occurred during 1996, 2001, and 2005. The issues found at these sites
         show weaknesses in EPA oversight and controls to detect when Agency staff and
         managers have inappropriately followed the site deletion process. Weaknesses in
         oversight have meant the Agency deleted some sites that did not meet the required
         level of human health and environmental protection.

         Since deletion, two of the three sites where we identified problems still do not
         meet EPA’s criteria for deletion. They require ongoing monitoring or response
         actions to ensure long-term protection of human health and the environment.




                                          13 

                                                                                   08-P-0235 



Recommendations
        We recommend that the Assistant Administrator for OSWER:

        2-1 	 Implement a quality assurance process that ensures NPL deletion decisions
              meet EPA guidance and NCP criteria before sites are deleted. At a
              minimum, the process should include the following actions by OSWER:

               a.	 Verification review to ensure draft final close-out reports and public
                   notices include all information specified in EPA’s deletion guidance,
                   including cleanup goals and all confirmatory sampling results.
               b.	 Verification that all appropriate site response actions have been
                   implemented, including institutional controls, and cleanup goals have
                   been met.
               c.	 Verification that final close-out reports and deletion dockets have been
                   completed and placed in the appropriate regional and local
                   repositories.

        We recommend that the Administrator for Region 3:

        2-2 	 Issue amendments to EPA’s ROD and the final close-out report that
              document the change in the remedy and provide appropriate support for the
              deletion decision for the McAdoo Associates site.

        2-3 	 Complete a deletion docket for the YCSWRA site and place copies in
              appropriate regional and local repositories. Also, complete a final close-out
              report for the site after all response actions are successfully completed and
              cleanup goals are met as specified by EPA’s ROD.

        2-4 	 Conduct an analysis to determine whether the current groundwater response
              action at the YCSWRA site provides the same level of protection to human
              health and the environment as the response specified in EPA’s ROD prior to
              its modification in 2004. If the current response is less protective, reinstate
              appropriate response requirements in EPA’s ROD for the site.

        2-5 	 Correct the inconsistency between the cleanup goals for the current
              groundwater response for the YCSWRA site and the cleanup requirements
              specified in EPA’s ROD.

        2-6 	 Resolve the groundwater monitoring and vapor intrusion issues discussed in
              EPA’s 2007 5-year review report for the site by no later than December
              2009. Take appropriate corrective actions to address any unacceptable
              human health and/or ecological risks identified from the groundwater
              monitoring and vapor intrusion investigation.




                                         14 

                                                                                    08-P-0235 



         2-7 	 Increase EPA’s monitoring activities for the YCSWRA site to ensure that
               the remedy is progressing towards meeting the cleanup requirements
               specified by EPA’s ROD and remains protective of human health and the
               environment. At a minimum, annually review groundwater monitoring data
               and conduct site visits to verify cleanup progress, compliance with cleanup
               requirements, and site conditions.

         We recommend that the Administrator for Region 5:

         2-8 	 Complete a deletion docket for the Kummer Sanitary Landfill site and place
               copies in appropriate regional and local repositories.

Agency Comments and OIG Evaluation

         The OIG received comments on the draft report from OSWER, Region 3, and
         Region 5, and we made changes to the report where appropriate. The Agency
         agreed with all recommendations and Agency Offices described corrective
         actions, for their respective recommendations, that have been taken, are in
         process, or are planned. Appendix C provides the full text of the Agency’s
         comments and the OIG’s responses.

         OSWER agreed with Recommendation 2-1 and described corrective actions
         taken, in process, or planned. For example, OSWER stated that it has proposed a
         change in the NPL site delegation to require formal concurrence by OSWER on
         the notice of intent to delete before notices are signed by the Regional
         Administrator. OSWER said that this concurrence process will ensure that it
         reviews deletion notices and that they are consistent with criteria specified by the
         NCP and EPA guidance. OSWER also said that it is in the preliminary stages of
         updating the January 2000 Close Out Procedures for National Priorities List
         Sites. According to OSWER, the changes will include clarifying deletion
         requirements, updating deletion docket requirements, updating the deletion
         document review process, and providing updated deletion document templates.
         OSWER will need to provide additional information for some corrective actions
         in its response to the final report as discussed in Appendix C. This
         recommendation remains open until OSWER implements the corrective actions.

         Region 3 agreed with Recommendations 2-2 through 2-7 and provided corrective
         actions that are in process and planned. The corrective actions for 2-2, 2-3, 2-5,
         2-6, and 2-7 meet the intent of our recommendations. For example, in response to
         Recommendation 2-2, Region 3 said it is preparing an Explanation of Significant
         Differences that will document necessary changes to the remedy and clarify the
         information supporting the deletion decision for the McAdoo Associates site. The
         Region also said it will prepare an attachment to the final close-out report that will
         provide supporting documentation and clarify the deletion.




                                          15 

                                                                        08-P-0235 



Region 3’s corrective actions for Recommendation 2-4 do not fully address the
recommendation. In its response to the final report, the Region will need to
describe actions taken or planned to ensure that the groundwater response for the
YCSWRA site provides the same level of protection to human health and the
environment as the response specified in EPA’s ROD prior to its modification.
The Region will also need to provide milestones for implementing or completing
the corrective actions, as appropriate, for Recommendations 2-2 and 2-4 through
2-7. Recommendations 2-2 through 2-7 will remain open until Region 3
implements the corrective actions.

Region 5 agreed with Recommendation 2-8 and said that a deletion docket for the
Kummer Sanitary Landfill site has been completed and placed in the appropriate
repositories. This recommendation is open until Region 5 provides completion
dates for these corrective actions in its response to the final report.




                                16 

                                                                                   08-P-0235 





                                 Chapter 3
EPA Has Not Ensured Appropriate Response Actions
  Have Been Implemented at Some Deleted Sites

          EPA has not ensured that appropriate response actions were taken to address
          contamination after two sites we reviewed were deleted from the NPL. Region 3
          has not ensured that all hazards at Operable Unit 2 of the McAdoo Associates site
          have been addressed and monitoring requirements were met. Region 5 has not
          ensured that the State of Minnesota has fully implemented the groundwater
          remedy specified by the ROD for the Kummer Sanitary Landfill site. Because of
          these issues, EPA was unable to ensure that the response actions at these two sites
          provide long-term protection to human health and the environment.

          The response problems at the McAdoo Associates site occurred primarily because
          Region 3 relied on 5-year reviews to assess and monitor conditions at Operable
          Unit 2. For the Kummer Sanitary Landfill site, we found that Region 5 had not
          verified whether the State has fully implemented the remedy specified by the
          ROD.

Additional Actions Required at the McAdoo Associates Site
          Region 3 has not ensured that appropriate response actions were taken to address
          all hazards at Operable Unit 2. The Region also has not ensured that groundwater
          monitoring requirements specified in the ROD for the operable unit were met.
          More specifically, since deleting the operable unit, Region 3 has not:

             •	 ensured that appropriate response actions were taken for all remaining
                regulated hazardous substances;
             •	 met long-term groundwater monitoring requirements;
             •	 conducted regular site inspections;
             •	 reestablished groundwater monitoring that meets ROD requirements,
                despite the Region’s 2005 determination that the location posed a threat to
                human health and the environment; and
             •	 ensured that institutional controls are in place.

          The Region has not ensured that EPA or the State of Pennsylvania took
          appropriate responses actions for all regulated contaminants. The Region did
          conclude that remaining high levels of contamination from gasoline and fuel oil in
          the groundwater were no longer contaminants of concern under CERCLA.
          However, it has not yet determined whether these pollutants required response
          actions under another authority such as the Resource Conservation and Recovery



                                          17 

                                                                                08-P-0235 



Act. A Region 3 manager told us that the Region had pursued discussions with
the State of Pennsylvania about an appropriate State response. However, the
Region’s site files did not demonstrate that the Region had been working with the
State to resolve issues with the remaining contamination at the unit prior to the
EPA’s 2005 5-year review. In November 2007, the State agreed to investigate the
source and extent of the remaining contamination and evaluate the potential for
vapor intrusion in residences located near the operable unit. Region 3 staff told us
in April 2008 that the State was working on a workplan, but has not completed
this investigation.

The Region has not met long-term monitoring requirements specified in the ROD
for the unit. The ROD required the Region to continue groundwater monitoring
until cleanup goals have been met for 3 years. Despite this requirement, the
Region did not sample the groundwater during the first 4-year period after the unit
was deleted (July 2001 to June 2005). As a result, the Region was unaware of
contamination levels at the unit for several years. In June 2005, the Region
sampled the groundwater for the EPA’s 5-year review covering the entire site.
The results showed that levels in the groundwater at the unit for three
contaminants continued to exceed the cleanup goals specified in the ROD. Table
3.1 shows the highest levels for the three contaminants identified from the 2005
groundwater samples.

Table 3.1. June 2005 Groundwater Sampling Results for Operable Unit 2

                           Cleanup             Sampling          Number Times Results
Contaminant               Goal (ug/l*)        Results (ug/l)     Exceed Cleanup Goal
Benzene                       0.2                 380                   1,900
Ethylbenzene                  0.2                 760                   3,800
Bis (2-ethylhexyl)            2.5                  6                     2.4
phthalate
*micrograms per liter

Source: EPA OIG analysis of McAdoo Sampling Report, dated September 22, 2005.

The Region does not consider the benzene and ethylbenzene levels listed in Table
3.1 to be contaminants requiring remediation under CERCLA. However, the
Region reported in the deletion notices that it would continue to monitor the
contamination at the unit. The 2005 sampling results indicate that the
contamination continues to exceed levels that protect human health and the
environment.

The Region did not conduct regular inspections of the unit and ensure that EPA
maintained and secured the groundwater monitoring wells. Although EPA
deleted the site in December 2001, the Region did not inspect the unit until the
2005 5-year review. The Region conducted this review from March through June
2005. The Region’s report for this 5-year review disclosed:




                                   18 

                                                                         08-P-0235 



   •	 Inspectors could not find four of eight monitoring wells that had been
      sampled in 2001 at the location. Three of these wells also could not be
      found during the last inspection that occurred in 2001 before the site was
      deleted. Construction debris and activities either destroyed or covered up
      the four wells.
   •	 The remaining four wells had been altered and were not secured with
      locking caps.
   •	 A sewage pumping station had been constructed on or adjacent to the unit
      without the Region’s knowledge. The Region found that this construction
      resulted in considerable soil disturbance at the unit and may have resulted
      in the destruction of two of the monitoring wells.

The Region has not reestablished groundwater monitoring that is consistent with
ROD requirements despite its 2005 determination that the unit posed a potential
long-term threat to human health and the environment. The ROD for the operable
unit requires that EPA conduct groundwater sampling semi-annually until cleanup
goals are met, and then quarterly until the goals have been maintained for 3 years.
The Region stated in an addendum to the 2005 5-year review that monitoring was
stopped because sampling conducted since 2000 showed no remaining
contaminants requiring remediation under CERCLA and one other contaminant
was below the MCL. The Region made this decision even though the State had
previously expressed concerns that the cleanup goals for the unit have not been
achieved and the contamination continues to pose potential risks to human health
and the environment. Although the Region did conduct sampling at the operable
unit in 2006 and 2007, the Region has not committed to continuing the
groundwater monitoring.

A Region 3 manager told us that the 2007 sampling results reconfirmed the
Region’s previous conclusions that the remaining pollutants in the groundwater
were not contaminants of concern under CERCLA. The manager also said that
the Region informed the State that the contamination could not be addressed
under CERCLA. However, the State said in a November 2007 letter to the
Region that a thorough review of the sample data in conjunction with
administrative documents that specify such things as performance standards need
to be completed before a decision can be made on future monitoring.

The Region also has not ensured that institutional controls, such as groundwater
and site use restrictions, were in place to protect human health and the
environment. According to Region 3 managers, the groundwater does not pose a
human exposure risk because all residents near the unit obtain potable water from
municipal sources. The managers also said that the Region established some
controls through a 1994 agreement between EPA and the current owner of the
unit. However, this agreement does not fully restrict use of the groundwater at the
unit or establish other controls to limit potential human exposure to the
contamination.




                                19 

                                                                                         08-P-0235 



          We found that these issues occurred because of a lack of oversight by Region 3
          after the site was deleted from the NPL. The site files demonstrated that the
          Region relied on the 5-year review process to assess and monitor conditions at the
          site. With regard to groundwater monitoring, a Region 3 manager told us that
          confusion among Region 3 staff about the monitoring requirements contributed to
          the infrequent groundwater sampling at the unit. Recently, the Region disclosed
          that it would start inspecting the unit annually and that three additional
          groundwater monitoring wells for the site were located in 2006. Our review of
          the report for the 2007 groundwater sampling results confirmed that the Region
          has located seven of the monitoring wells.

EPA’s Remedy Not Fully Implemented at Kummer Sanitary Landfill
          Region 5 had not ensured that the State of Minnesota had fully implemented the
          groundwater remedy specified by EPA’s ROD after the Kummer Sanitary
          Landfill site was deleted from the NPL.

          EPA deleted the site based on criteria specified in a 1995 agreement between EPA
          and the State of Minnesota. Under the agreement, the State is responsible for
          implementing the remedy specified in EPA’s ROD addressing groundwater
          contamination at the site. This agreement specifies that the State would
          implement the remedy after EPA deleted the site. At the time of deletion, the
          ROD required that the groundwater contamination at the site be addressed using
          bioremediation. The ROD also established an active gas extraction system as the
          contingency remedy if bioremediation was determined to be ineffective at
          addressing the contamination. The State implemented the bioremediation remedy
          in 1996 after the site was deleted. In 1997, the State determined that the remedy
          was not effective. Rather than implementing the contingency remedy, we found
          that the State is using passive venting to address the groundwater contamination.
          However, passive venting is not included as an alternative response in the ROD.
          This alternative response emits volatile pollutants to the air to reduce the
          contaminant levels and control gas migration from the landfill.

          We reviewed the most recent groundwater sampling results available for the site,
          taken in 2006. The results showed that the State’s cleanup remedy had not met
          cleanup goals for three contaminants of concern listed in the ROD. These results
          are shown in Table 3.2.

             Table 3.2. 2006 Sampling Results for Kummer Sanitary Landfill

             Contaminant                     Cleanup         2006 Range of Sampling
                                            Goal (ug/l)           Results (ug/l)
             Vinyl chloride                    0.2                  0.4 – 1.2
             Barium                           2000                2100 and 3700
             Arsenic                            10                   11 -40

             Source: EPA OIG Analysis of Kummer Sampling Report, dated March 27, 2007.




                                            20
                                                                                  08-P-0235 



        According to the Region’s 2003 5-year review for the site, the State has addressed
        immediate and short-term threats to human health through ongoing response
        actions and implementation of institutional controls. However, the 5-year review
        did not accurately describe the State’s groundwater response at the site. EPA’s 5­
        year review identified natural attenuation as the remedy for the contamination
        rather than the passive venting system that the State has implemented. The
        Region’s 5-year review also did not identify that the State had failed to implement
        the contingency remedy specified by the ROD. Therefore, it appears that the
        Region may not have obtained complete information on response actions at the
        site during its 5-year review.

        The State’s most recent inspection report for the site, issued in 2007, disclosed
        that the response actions at the site are ongoing. However, the report disclosed
        that the passive venting system might need additional capacity to better control
        the landfill gas migration. Because the passive venting system was not included
        in EPA’s ROD, we were unable to determine whether the State’s response has
        been at least as protective to human health and the environment as the active gas
        extraction remedy specified in the ROD.

        We found that this response issue occurred because Region 5 had not required the
        State to fully implement the remedy specified by the ROD. Region 5 managers
        said that the Region’s activities for the site have consisted of reviews of the
        State’s annual reports on response actions at the site and 5-year reviews. They
        also said that the Region did not conduct additional activities because EPA’s 1995
        agreement with the State specified that the Region terminate its oversight after the
        State assumed full responsibility for the site. However, a Region 5 manager told
        us that the Region planned to evaluate the protectiveness of the State’s
        groundwater response during the next 5-year review for the site scheduled for
        2008. The manager also said that the Region planned to document any changes in
        the remedy specified in the ROD through an appropriate revision to the decision
        document after the 2008 5-year review was completed.

Recommendations
        We recommend that the Administrator for Region 3:

        3-1 	 Work with the State of Pennsylvania to ensure that necessary response
              actions are taken under the appropriate regulatory authority to address
              groundwater contamination at Operable Unit 2 of the McAdoo Associates
              site. The response actions should include appropriate controls limiting
              human exposure to the groundwater.




                                         21 

                                                                                  08-P-0235 



         3-2 	 Re-evaluate groundwater monitoring requirements at Operable Unit 2 of the
               McAdoo Associates site under the appropriate regulatory authority.
               Require that the monitoring program include a sufficient number of
               monitoring wells to fully characterize the groundwater contamination and a
               sampling frequency that ensures protection to human health and the
               environment.

         3-3 	 Require that any changes to the current monitoring requirements specified
               in the ROD for Operable Unit 2 of the McAdoo Associates site be
               incorporated into appropriate decision documents.

         3-4 	 Conduct visits to Operable Unit 2 of the McAdoo Associates site at least
               annually to verify that site conditions remain protective to human health and
               the environment.

        We recommend that the Administrator for Region 5:

        3-5 	 Ensure that EPA’s 5-year review scheduled for March 2008 evaluates the
              protectiveness of the groundwater remedy at the Kummer Sanitary Landfill
              site. Document any changes to the remedy for groundwater through an
              appropriate ROD revision after the 2008 5-year review is completed.

        3-6 	 Require the State of Minnesota to implement, operate, and maintain the
              groundwater remedy specified by the ROD for the groundwater at the
              Kummer Sanitary Landfill site.

Agency Comments and OIG Evaluation
         Regions 3 and 5 agreed with the recommendations and described corrective
         actions that have been taken, are in process, or are planned. The Regions’
         corrective actions are responsive and fully address Recommendations 3-3 through
         3-6. However, their corrective actions do not fully address Recommendations 3-1
         and 3-2. Appendix C provides the full text of the Regions’ comments and the
         OIG’s responses.

         Region 3 agreed with Recommendation 3-1 and said that it is currently working
         with the State of Pennsylvania to implement the recommendations issued in
         EPA’s 2005 5-year review for the McAdoo Associates site. The Region also said
         that the State is currently performing an investigation of the remaining petroleum
         contamination at the site and will assess whether or not vapor intrusion may be an
         issue. The Region further stated that, although institutional controls do exist for
         the site, EPA will work with the State and the property owner to determine what
         additional controls are necessary and ensure they are established as appropriate.
         The Region’s comments partially address the recommendation. However, the
         comments do not describe how vapor intrusion will be addressed if the State’s
         investigation determines that a response is necessary to protect the health of


                                          22 

                                                                           08-P-0235 



residents living near the site. The comments also do not include a milestone or
milestones for completing the corrective actions. The Region will need to provide
additional details on actions taken and/or planned, along with a milestone, or
milestones, for completing the corrective actions in its response to the final report.
Recommendation 3-1 will remain open until the Region implements the corrective
actions.

Region 3 agreed with Recommendation 3-2 and said that EPA is working with the
State of Pennsylvania to evaluate groundwater contamination at Operable Unit 2
of the McAdoo Associates site. The Region stated that EPA believes that there is
already a sufficient number of monitoring wells for complete characterization of
the Bis (2-ethylhexyl) phthalate contamination at the site. However, the Region
said that the State may determine that additional monitoring wells are necessary to
define the extent of the petroleum contamination at the operable unit. In its
response to the final report, the Region will need to describe how EPA determined
that there are sufficient monitoring wells to characterize Bis (2-ethylhexyl)
phthalate in the groundwater. The final response will also need to include a
milestone, or milestones, for completing the corrective actions. Recommendation
3-2 will remain open until the Region provides more information on the corrective
actions and the actions are fully implemented.

Region 3 agreed with Recommendation 3-3. The Region stated that it intends to
clarify groundwater monitoring requirements through the second Explanation of
Significant Differences discussed in its comments on Recommendation 2-2. This
recommendation is open until the Region incorporates changes to the current
monitoring requirements into an Explanation of Significant Differences.

Region 3 agreed with Recommendation 3-4. However, the Region will need to
provide a schedule for completing the site visits to Operable Unit 2 of the
McAdoo Associates site in its response to the final report. The recommendation
is open until the Region provides the schedule and the corrective action is
implemented.

Region 5 agreed with Recommendation 3-5 and stated that the second 5-year
review for the Kummer Sanitary Landfill site was completed in March 2008. The
Region said that the 5-year review evaluated the groundwater remedy and found
that natural attenuation is successfully reducing the remaining chemicals of
concern that still exceed Safe Drinking Water Act Maximum Contaminant Levels
and that the remedy is considered to be protective of human health and the
environment in the short-term. The Region commented that long-term
protectiveness requires implementation, maintenance, and compliance with
groundwater use restrictions and other institutional controls until cleanup
standards are met. The Region also stated that the 5-year review included as a
recommendation and follow-up action the issuance of a decision document within
a year identifying monitored natural attenuation as the groundwater remedy for
the site. This recommendation is open until Region 5 provides a specific



                                 23 

                                                                           08-P-0235 



milestone for issuing the revision to the ROD and completes the corrective action
in its response to the final report.

Region 5 agreed with Recommendation 3-6. The Region stated that, as
recommended by the March 2008 5-year review, it will be working with the State
of Minnesota to modify the latest ROD to reflect the remedy currently being
implemented at the site. In its response to the final report, the Region will need to
provide a specific milestone for issuing the revision to the ROD. The
recommendation is open until the Region issues the revised ROD.




                                 24 

                                                                                                                                     08-P-0235



                            Status of Recommendations and
                              Potential Monetary Benefits

                                                                                                                           POTENTIAL ONETARY
                                               RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                               Planned
Rec.   Page                                                                                                   Completion   Claimed    Agreed To
No.     No.                         Subject                            Status1         Action Official           Date      Amount      Amount

2-1     14    Implement a quality assurance process that                 O          Assistant Administrator
              ensures NPL deletion decisions meet EPA                                      OSWER
              guidance and NCP criteria before sites are deleted.
              At a minimum, the process should include the
              following actions by OSWER:
              a. Verification review to ensure draft final close-out
                 reports and public notices include all
                 information specified in EPA’s deletion
                 guidance, including cleanup goals and all
                 confirmatory sampling results.
              b. Verification that all appropriate site response
                 actions have been implemented, including
                 institutional controls, and cleanup goals have
                 been met.
              c. Verification that final close-out reports and
                 deletion dockets have been completed and
                 placed in the appropriate regional and local
                 repositories.

2-2     14    Issue amendments to EPA’s ROD and the final                O          Region 3 Administrator
              close-out report that document the change in the
              remedy and provide appropriate support for the
              deletion decision for the McAdoo Associates site.

2-3     14    Complete a deletion docket for the YCSWRA site             O          Region 3 Administrator     09/30/08
              and place copies in appropriate regional and local
              repositories. Also, complete a final report for the
              site after all response actions are successfully
              completed and cleanup goals are met as specified
              by EPA’s ROD.

2-4     14    Conduct an analysis to determine whether the               O          Region 3 Administrator
              current groundwater response action at the
              YCSWRA site provides the same level of protection
              to human health and the environment as the
              response specified in EPA’s ROD prior to its
              modification in 2004. If the current response is
              less protective, reinstate appropriate response
              requirements in EPA’s ROD for the site.

2-5     14    Correct the inconsistency between the cleanup              O          Region 3 Administrator
              goals for the current groundwater response for the
              YCSWRA site and the cleanup requirements
              specified in EPA’s ROD.

2-6     14    Resolve the groundwater monitoring and vapor               O          Region 3 Administrator
              intrusion issues discussed in EPA’s 2007 5-year
              review report for the site by no later than December
              2009. Take appropriate corrective actions to
              address any unacceptable human health and/or
              ecological risks identified from the groundwater
              monitoring and vapor intrusion investigation.




                                                                             25 

                                                                                                                                         08-P-0235


                                                                                                                               POTENTIAL ONETARY
                                                     RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed To
    No.      No.                           Subject                          Status1         Action Official          Date      Amount      Amount

    2-7      15     Increase EPA’s monitoring activities for the              O          Region 3 Administrator
                    YCSWRA site to ensure that the remedy is
                    progressing towards meeting the cleanup
                    requirements specified by EPA’s ROD and remains
                    protective of human health and the environment.

    2-8      15     Complete a deletion docket for the Kummer                 O          Region 5 Administrator
                    Sanitary Landfill site and place copies in
                    appropriate regional and local repositories.

    3-1      21     Work with the State of Pennsylvania to ensure that        O          Region 3 Administrator
                    necessary response actions are taken under the
                    appropriate regulatory authority to address
                    groundwater contamination at Operable Unit 2 of
                    the McAdoo Associates site.

    3-2      22     Re-evaluate groundwater monitoring requirements           O          Region 3 Administrator
                    at Operable Unit 2 of the McAdoo Associates site
                    under the appropriate regulatory authority.
                    Require *that the monitoring program include a
                    sufficient number of monitoring wells to fully
                    characterize the groundwater contamination and a
                    sampling frequency that ensures protection to
                    human health and the environment.

    3-3      22     Require that any changes to the current monitoring        O          Region 3 Administrator
                    requirements specified in the ROD for Operable
                    Unit 2 of the McAdoo Associates site be
                    incorporated into appropriate decision documents.

    3-4      22     Conduct visits to Operable Unit 2 of the McAdoo           O          Region 3 Administrator
                    Associates site at least annually to verify that site
                    conditions remain protective to human health and
                    the environment.

    3-5      22     Ensure that EPA’s 5-year review scheduled for             O          Region 5 Administrator
                    2008 evaluates the protectiveness of the
                    groundwater remedy at the Kummer Sanitary
                    Landfill site. Document any changes to the remedy
                    through an appropriate ROD revision after the 2008
                    5-year review is completed.

    3-6      22     Require the State of Minnesota to implement,              O          Region 5 Administrator
                    operate, and maintain the groundwater remedy
                    specified by the ROD for the groundwater at the
                    Kummer Sanitary Landfill site.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                  26 

                                                                                        08-P-0235 



                                                                                    Appendix A

                 Details on Scope and Methodology

We conducted our evaluation from July 2006 to March 2008 in accordance with Government
Auditing Standards, issued by the Comptroller of the United States. Our scope generally covered
EPA’s activities for deleting sites from the NPL during the period from November 1985 through
June 2006. We gained an understanding of EPA’s deletion process by interviewing managers
and program staff from OSWER and Regions 3 and 5. We also reviewed documents and records
applicable to EPA’s Superfund process and NPL site deletion activities. We reviewed the NCP
and EPA guidance documents applicable to NPL deletions. Our review included the following
EPA guidance documents:

    •	 Interim Procedures for Deleting Sites from the National Priorities List (OSWER 9320.2­
       01, March 1984)
    •	 Procedures for Completion and Deletion of National Priorities List Sites (OSWER
       Directive 9320.2-3A, April 1989)
    •	 Close Out Procedures for National Priorities List Sites (OSWER 9320.2-09A-P, January
       2000)

To assess management controls, we evaluated the Agency’s quality assurance procedures and
records for deletion decisions from November 1985 through June 2006. We found that the
Agency needs to enhance quality assurance activities to ensure its decisions are consistent with
criteria specified by EPA guidance and fully supported. Our evaluation work considered the
findings on institutional controls noted in the Prior Evaluations section of this report.

We evaluated NPL deletions for Regions 3 and 5. We selected these regions primarily because
they were among the regions with the highest number of NPL deletions. We also selected these
regions to provide geographical coverage for the eastern and central sections of the nation. We
made site visits to these two regions and reviewed documents relevant to their deletion decisions.

We reviewed Comprehensive Environmental Response, Compensation, and Liability
Information System (CERCLIS) information to identify the universe of full and partial site
deletions. We obtained this information from OSWER. We conducted limited testing to verify
the accuracy of this data. We compared site names and deletion information from CERCLIS
with Superfund documents and records for a judgment sample of eight deleted sites. The
selection criterion for this sample is discussed below. Our testing did not identify any major
discrepancies between the CERCLIS information and Superfund documents and records.

We used a judgment sample to determine whether EPA’s deletion decisions have been consistent
with EPA criteria and fully supported. We selected a judgment sample of 8 of the 309 sites
deleted from the NPL as of June 2006. We selected sites located in Regions 3 and 5. We
selected sites where information in public notices, 5-year review reports, and/or other relevant
documents appeared inconsistent with EPA’s deletion criteria. For example, we considered a
site condition to be inconsistent with the criteria where the information indicated that human


                                                27 

                                                                                        08-P-0235 



health exposures or contaminated groundwater migration was not under control. We also
considered a site condition to be inconsistent with the criteria where cleanup goals were not met
or long-term protection to human health was not achieved. We reviewed documents applicable
to deletion decisions. These documents included deletion dockets, RODs, site sampling data,
final close-out reports, 5-year review reports, and public notices. We evaluated the deletion
decisions and documents supporting the decisions for the sites using applicable Superfund
criteria. The criteria included the NCP and OSWER guidance documents relevant to NPL
deletions.




                                                28 

                                                                                       08-P-0235 



                                                                                   Appendix B

        Additional Details on Sites that Were Deleted 

                Before Meeting EPA Criteria 


The Agency’s deletion decisions for the York County Solid Waste and Refuse Authority Landfill
(YCSWRA) and McAdoo Associates sites were not consistent with criteria specified in EPA
guidance and not fully supported. Before deleting these sites, EPA had not ensured that all site
cleanup activities were complete, cleanup goals were met, or that the remedies were fully
protecting human health and the environment. This appendix provides additional details on the
deletion decision issues for these sites discussed in Chapter 2.

YCSWRA Site

Background

The YCSWRA site is located in Pennsylvania. This site was listed on the NPL in 1987 and
deleted in 2005. The site consists of a 135-acre inactive, unlined landfill that was used for
municipal and industrial waste disposal. The site was placed on the NPL because hazardous
substances from past disposal practices were contaminating the groundwater and nearby
residential wells. This groundwater was the primary drinking water supply for local residents.
Prior to the site’s placement on the NPL, the State of Pennsylvania entered into an agreement
with the responsible party to cleanup the contamination at the site. This agreement established
specific response requirements at the site, including the cleanup of the groundwater. Since 1984,
the responsible party has implemented a program to address the groundwater contamination and
the affected residential wells surrounding the site.

Response Actions

Because of the site’s placement on the NPL, the State required the responsible party to conduct a
formal investigation to determine the appropriate response actions under CERCLA. The
responsible party completed this investigation in May of 1994. In December 1994, EPA issued a
ROD establishing site-specific cleanup requirements that were necessary to meet CERCLA
requirements and provide appropriate protection to human health and the environment. EPA’s
ROD was based on the responsible party’s investigation results. The ROD selected the existing
remedy at the site, which was established under the 1984 agreement between the State and the
responsible party, and added additional response requirements. The major response actions
required by the ROD included the following:

   1.	 Continued operation of the currently existing groundwater extraction and air stripper
       treatment systems.
   2.	 Continued operation and maintenance of the existing drinking water treatment systems
       for affected residences using affected private wells.
   3.	 Continued maintenance of the landfill’s cap and passive venting system.


                                               29 

                                                                                         08-P-0235 



   4.	 Continued sampling of treated drinking water and groundwater to ensure that treatment
       components are effective and groundwater remediation is progressing towards cleanup
       goals.
   5.	 Implementation of a monitoring program to assess the effectiveness of the groundwater
       treatment system and its impact on surface water and wetland habitat.
   6.	 Implementation of a monitoring program to assess the impact of the treated groundwater
       discharge on the nearby surface waters and sediments.
   7.	 Deed restrictions to prohibit the installation of new on-site wells and disturbance of the
       landfill’s cap.

The ROD also established more stringent cleanup goals for the groundwater and required the
cleanup of additional contaminants. For example, the primary groundwater cleanup goal under
the 1984 agreement required the cleanup of only volatile organic compounds to MCLs for a
period of 1 year. EPA’s ROD required that the groundwater be cleaned up for organic and
inorganic (e.g., barium and mercury) compounds to the more stringent of background or MCLs
for a period of 12 consecutive quarters. The ROD also required monitoring for an additional 5
years to ensure that cleanup goals have been maintained.

In 1997, EPA issued a CERCLA consent order to the responsible party that requires
implementing the environmental monitoring and deed restriction requirements specified in the
ROD. The consent order also requires the responsible party to submit monthly reports on actions
taken to comply with the 1984 agreement with the State and groundwater sampling results to
Region 3.

Basis for Deletion

In 2004, Region 3 modified the ROD to eliminate response actions 1 through 4 listed above. The
Region disclosed in the modification that these actions were eliminated for the following
reasons:

   •	 The 1984 agreement between the State and responsible party also requires the response
      actions.
   •	 EPA expects, based on past performance, the responsible party to continue the response
      actions under the State’s oversight.
   •	 The responsible party is required under the CERCLA consent order to report to EPA all
      actions taken to comply with the agreement with the State.

Based on this modification, the Region determined that the CERCLA remedy consisted of
monitoring and deed restrictions. As a result, the Region “determined that all appropriate
response actions under CERCLA have been completed and, therefore, further remedial action
pursuant to CERCLA is not appropriate.”

OIG Evaluation of Deletion Decision

The Region’s deletion decision for this site did not meet the criteria specified in EPA’s deletion
guidance and was not fully supported. As a result, EPA was unable to fully ensure that response


                                                30 

                                                                                            08-P-0235 



actions at the site would provide long-term protection to human health and the environment
before the site was deleted.

Region 3 stated in the modification to the ROD that the scope, performance, cost, and objectives
of the ROD were not fundamentally altered. The stated primary objective and requirement of the
ROD is to restore contaminated ground water to its beneficial use by treating the contaminated
ground water to background levels or MCLs, whichever is more stringent. Therefore, the
Region’s modification of the ROD did not remove the groundwater cleanup requirement
established under CERCLA. The ROD also continues to require a monitoring program to assess
the effectiveness of the groundwater treatment system and its impact on surface water,
sediments, and wetland habitat.

We found that the Region deleted the site before the groundwater cleanup requirements specified
by the ROD were met. The most recent groundwater sampling at the site before deletion
occurred in 2004. This sampling data showed that three contaminants of concern had not met
MCLs. These results are shown in Table B.1. In addition, the Region had not determined
whether background contamination levels were more stringent than the MCLs as required by the
ROD.

            Table B.1. 2004 Groundwater Sampling Results for YCSWRA

                                  Maximum Contaminant         Range of 2004 Sampling
            Contaminant               Level ( ug/l)               Results (ug/l)
            Tetrachloroethene              5                       12.6 – 82.9
            Vinyl chloride                 2                        2.2 – 27.6
            Manganese                      50                      90 – 17,200

            Source: EPA OIG analysis of YCSWRA Sampling Reports, dated December 15, 2004.

The Region deletion decision was also not supported by analysis. We found that the cleanup
goals in the 1984 agreement between the State and the responsible party are less stringent than
the goals removed from the ROD by the Region’s modification in 2004. The cleanup goals
removed from the ROD required that the levels for 15 contaminants of concern be reduced to the
more stringent of background or MCLs for a period of 12 consecutive quarters. However, the
cleanup goals under the 1984 agreement require the cleanup of only four of these contaminants
of concern. Further, the cleanup goals in the 1984 agreement require that the levels for these
four contaminants be reduced to MCLs for a period of one year. EPA’s ROD guidance specifies
that the Agency include in the modification a detailed analysis showing that the ROD continues
to meet CERCLA requirements when primary response actions and cleanup goals are removed.
The Region’s 2004 ROD modification did not include this detailed analysis. As a result, we
were not able to verify that the response action under the 1984 agreement will provide the level
of protection to human health and the environment that was required by the ROD prior to its
modification in 2004.

The cleanup goals in the 1984 agreement are also inconsistent with the remaining cleanup
requirements in the ROD. The ROD continues to require the restoration of the contained
groundwater to the more stringent of background or MCLs.



                                                 31 

                                                                                         08-P-0235 



Since deletion from the NPL, remediation activities at the site have continued under the 1984
agreement between the State and the responsible party. The most recent groundwater sampling
results available during our review (2006) showed that the remedy for the site had not yet met
cleanup requirements specified by the ROD. These results are shown in Table B.2. Two
contaminants of concern, tetrachloroethene and vinyl chloride, were at levels approximately 14
times the MCL.

             Table B.2. 2006 Groundwater Sampling Results for YCSWRA

                                  Maximum Contaminant         Range of 2006 Sampling
               Contaminant             Level ( ug/l)              Results (ug/l)
             Tetrachloroethene              5                       11.9 – 77.5
             Vinyl chloride                 2                        2.4 – 27.4
             Manganese                     50                       50 – 19,300

             Source: EPA OIG analysis of YCSWRA Sampling Reports, dated June 26, 2006.

The remedial action is ongoing and Region 3 has reported institutional controls are in place
including deed restrictions to prohibit installation of new onsite wells in the area of
contamination. However, the Region recently completed a 5-year review of the site during 2007
and was unable to make a protectiveness determination. The Region was unable to make this
determination because (1) monitoring to assess the groundwater treatment system’s impact on
surface water, sediments, and wetland habitat has not been done as required by the ROD; and (2)
vapor intrusion to the homes near the site from the groundwater contamination is a potential
issue requiring further investigation. The Region’s 5-year review report includes
recommendations and milestones for resolving these issues by 2009. According to the report, the
Region will make a protectiveness determination and issue an addendum to the 2007 5-year
review report by December 2009.

McAdoo Associates Site
Background

The McAdoo Associates site is located in Pennsylvania. This site was listed on the NPL in 1983
and deleted in 2001. The site consists of two operable units that are about 3 miles apart.
Operable Unit 1 is about 8 acres in size. Operable Unit 2 is a small lot, about ½ acre in size.
Operable Unit 1 was used for storing and processing of hazardous waste. Operable Unit 2 was
used for temporary storage of waste oil and liquid hazardous waste prior to incineration at
Operable Unit 1. Because both locations were operated as one facility involving the same
ownership and waste, they were combined and collectively called the McAdoo Associate site.
The sites were listed because hazardous substances from the past waste operations had
contaminated the soil, groundwater, and surface water.

Our evaluation identified issues with the deletion decision for Operable Unit 2. Therefore, the
details presented below pertain only to Operable Unit 2.




                                                 32 

                                                                                            08-P-0235 



Response Actions

Region 3 conducted the following response actions at the Operable Unit 2 under two RODs:

   1.	 In 1984, the Region issued a ROD requiring the removal of five underground storage
       tanks and contaminated soils. The Region completed these actions in 1985.

   2.	 The Region issued another ROD in 1991 that determined, among other things, that no
       further response action was necessary at the unit. However, the ROD required the
       Region to perform groundwater monitoring. During 1992 and 1993, the Region installed
       monitoring wells and sampled the groundwater.

   3.	 Based on the 1993 groundwater monitoring results, the Region issued a ROD amendment
       in 1993. The amendment required the Region to install wells and a treatment system to
       extract and cleanup contaminated groundwater. These contaminants included weathered
       fuel oil and gasoline. The amendment also established cleanup goals for each
       contaminant of concern and required remediation of the groundwater until these goals
       were met.

   4.	 After installation and testing of the groundwater extraction wells in 1995, the Region
       determined that the capacity of the aquifer would not support continuous extraction and
       treatment of the contaminated groundwater.

   5.	 In 1995, the Region issued a modification to the ROD. The modification terminated the
       construction of the groundwater treatment system and established new response actions at
       the unit. Among other actions, the modification required manual extraction of the
       contaminated groundwater on a periodic basis with off-site treatment.

Basis for Deletion

Region 3 deleted the site because it determined that the site met the following two criteria
specified by the NCP:

   •	 the responsible parties or other parties have implemented all appropriate response actions
      required; and
   •	 all appropriate fund-financed responses under CERCLA have been implemented and no
      further action by responsible parties is appropriate.

Region 3 disclosed in the final close-out report and notice of intent to delete for the site that it
made this determination based on its thorough analysis of the groundwater data from four
sampling events. These sampling events were conducted between 1996 and 2000. The Region
said in these documents that this sampling data showed that most of the remaining pollutants in
the groundwater were not contaminants of concern under CERCLA because they were
constituents of fuel oil and gasoline. These documents also disclosed that that the remaining
groundwater contamination did not threaten nearby residents because they obtain potable water
from municipal sources.



                                                 33 

                                                                                              08-P-0235 



OIG Evaluation of Deletion Decision

The Region’s deletion decision for Operable Unit 2 did not meet the criteria specified EPA’s
deletion guidance and was not fully supported. As a result, EPA was unable to fully ensure that
response actions at the site would provide long-term protection to human health and the
environment before the site was deleted.

We found that the Region deleted the unit without meeting the cleanup requirements specified by
the ROD. Although, the Region determined that most of the remaining pollutants in the
groundwater were no longer contaminants of concern, the ROD continued to include response
actions for these and other pollutants in the groundwater at the time the unit was deleted. The
most recent groundwater sampling at the unit before deletion occurred during 2000 and 2001.
This sampling data showed that groundwater cleanup goals had not been met for four
contaminants of concern. These results are shown in Table B.3. In addition, site records showed
that the Region had not established a cleanup goal for manganese even though the ROD required
that the Region establish a cleanup level for the contaminant. As shown in Table B.3, the
manganese was measured at levels 288 times greater than EPA’s MCL.

          Table B.3. 2000 - 2001 Groundwater Sampling Results for McAdoo Associates

                                      Cleanup              Range of 2000/2001
                 Contaminant         Goal (ug/l)         Sampling Results (ug/l)
          Benzene                        0.2                      39 – 576
          Ethylbenzene                   0.2                       7 – 893
          1,2 dichloroethane            0.03                       1 and 3
          Bis (2-ethylhexyl)             2.5                       1 – 10
          phthalate
          Manganese                      (a)                   611 – 14,400
          (a) EPA has promulgated a maximum contaminant level of 50 ug/l for the
          contaminant.

          Source: EPA OIG analysis of McAdoo Associates Sampling Reports, dated January 18,
          2000 and November 16, 2001.

We could not confirm the Region’s conclusions on the remaining groundwater contamination
because the Region did not document the analysis of the sampling results. The Region
concluded that the most of the remaining contaminants in the groundwater were benzene and
ethylbenzene, which were not contaminants of concern under CERCLA. Our review of the
sampling data showed that these pollutants, along with at least one other contaminant listed in
Table B.3, were found together at levels exceeding cleanup goals in three monitoring wells.
Under CERCLA, EPA considers benzene and ethylbenzene as contaminants of concern when
they are intermixed with at least one of the other hazardous pollutants listed in Table B.3.
Region 3 also reported in the final close-out report and notice of intent to delete that the bis (2­
ethylhexyl) phthalate levels in the groundwater were slightly above the cleanup goal. However,
as shown in Table B.3, the contaminant was found at a level as high as 4 times the cleanup goal.

Although we could not confirm the Region 3’s conclusions supporting its deletion of the unit, the
site appears to be protective to human health over the short-term because nearby residents
receive potable water from municipal water sources.


                                                   34 

                                                                                       08-P-0235 



                                                                                     Appendix C

                   Agency Comments on Draft Report
                         and OIG Evaluation
June 6, 2008

MEMORANDUM


SUBJECT: 	 OSWER Response to OIG Draft Evaluation Report, EPA Decisions to Delete
           Superfund Sites Should Undergo Quality Assurance Review

FROM:           Susan Parker Bodine/s/
                Assistant Administrator

TO:             Bill A. Roderick
                Deputy Inspector General


       Thank you for the opportunity to review and comment on the draft OIG evaluation report,
EPA Decisions to Delete Superfund Sites Should Undergo Quality Assurance Review. We are
responding to recommendation 2-1. Regions 3 and 5 will be responding to the remaining
recommendations under a separate cover.

COMMENTS

         We offer the following comments on the draft evaluation report:

Page                    Comment

None                   The Table of Contents does not mention the York County Solid Waste and
                Refuse Authority (YCSWRA) at all.

    OIG Response

    The YCSWRA Site is not included in the Table of Contents because our findings on the site
    are discussed under a subsection in Chapter 2. The Table of Contents includes only major
    sections of the Chapters.

1                       There are 46 partial deletions, not 446 partial deletions.

OIG Response

We agree and corrected this error in the report.

                                                   35 

                                                                                           08-P-0235




13                       The first bullet should be updated to reflect the pending change to the
                 deletions delegation.

 OIG Response

 We agree and updated the bullet to reflect the pending change to the delegation.


13                      The Assessment and Remediation Division has not yet been reorganized
                 as of May 2008.


 OIG Response

 An OSWER manager informed us on June 9, 2008 that the division was reorganized as of
 June 8, 2008. We updated the report to reflect this achievement.


17                       Table 3.1, the heading and numbers in the last column are not needed.

 OIG Response

 The table was not revised because the information in the last column quantifies the
 difference between the sample result for each contaminant and the relevant cleanup goal.



RECOMMENDATIONS 


2-1      Implement a quality assurance process that ensures NPL deletion decisions meet EPA
         guidance and NCP criteria before sites are deleted. At a minimum, the process should
         include the following actions by OSWER:

      a. Verification review to ensure draft final close-out reports and public notices include all
         information specified in EPA’s deletion guidance, including cleanup goals and all
         confirmatory sampling results.
      b. Verification that all appropriate site response actions have been implemented, including
         institutional controls, and cleanup goals have been met.
      c. Verification that final close-out reports and deletions dockets have been completed and
         placed in the appropriate regional and local repositories.

We concur with recommendation 2-1. The following actions are underway or completed:

      •	 OSWER has proposed a change in the National Priorities List site deletion delegation to
         require formal OSWER Headquarters concurrence on the notice of intent to delete before



                                                  36 

                                                                                        08-P-0235 



     the document is signed by the Regional Administrator. This concurrence role will ensure
     that OSWER Headquarters reviews all deletion notices and ensures that these documents
     are consistent with the deletion criteria specified in the NCP and outlined in EPA
     guidance. This would include verification that all site response actions have been
     implemented, including institutional controls, and that all cleanup goals have been met.
     The proposed change to the delegation is currently undergoing the Agency Directive
     Clearance Review process. Comments on the redelegation were due by May 30, 2008.


OIG Response

OSWER’s planned corrective actions generally meet the intent of our recommendation.
The actions should ensure that the Agency’s deletion notices and decisions meet EPA and
NCP criteria. However, OSWER will need to describe the verification process for ensuring
final close-out reports include all information specified in EPA’s deletion guidance in its
response to the final report. OSWER will also need to provide a milestone, or milestones,
for implementing the revised delegation and verification process. The recommendation is
open until OSWER provides more information on and implements the corrective actions.


  •	 OSWER continues to comply with the Federal Docket Management System requirements
     for rulemaking publications. All deletion notices are available for public review and
     comment through www.regulations.gov. The regions, with assistance from Headquarters,
     are responsible for ensuring that all supporting materials (e.g., final closeout reports) for
     deletion dockets are online or referenced before the notice of intent to delete is published
     in the Federal Register.


OIG Response

OSWER’s comments on the Federal Docket Management System describe the regions’ and
Headquarters’ responsibilities for ensuring that supporting documents for deletion dockets
are online or referenced. However, the comments do not describe the Agency’s controls
that are in place or planned to verify that close-out reports and deletion dockets have been
completed and available for review at the appropriate regional and local repositories. In its
response to the final report, OSWER will need to describe these controls and provide a
milestone, or milestones, for completing the corrective action. The recommendation is open
until OSWER provides more information on and implements the corrective action.


  •	 OSWER developed Federal Register deletion document templates for traditional and
     direct final process deletions in consultation with the Office of General Counsel, the
     Office of Regulatory Policy and Management and the regions. The purpose of these
     templates is to incorporate new Federal Docket Management System language, ensure
     document consistency across all regions, and ensure that all appropriate Federal Register
     rulemaking publication language is incorporated in the notices. These templates are



                                               37
                                                                                      08-P-0235


     available at the following website:
     http://www.epa.gov/superfund/cleanup/postconstruction/del_templates.htm

OIG Response

OSWER’s templates should assist the Agency with preparing deletion notices that meet the
criteria specified by EPA’s deletion guidance. As discussed in the report, OSWER finalized the
templates in May 2008. This corrective action has been completed. Therefore, OSWER does
not need to provide additional details in its response to the final report.



  •	 Deletions coordinators have been designated for all regions. The deletions coordinators
     serve as deletion experts within their office. These responsibilities include working with
     Superfund remedial project managers and managers to ensure that Headquarters reviews
     draft deletion notices and that the notices are developed using the new deletion templates.
     In addition, the deletion coordinators are responsible for ensuring that remedial project
     managers make deletion docket materials available in the Federal Docket Management
     System. All deletion coordinators were required to attend the Federal Docket
     Management System rule writer training.


OIG Response

The deletions coordinators’ activities should assist the Agency with ensuring meeting
deletion notification and docket criteria specified by EPA guidance. However, OSWER’s
comments do not include a description of the Agency’s controls that are in place or planned
to ensure deletion dockets have been completed and available for review at the appropriate
regional and local repositories. In its response to the final report, OSWER will need to
describe these controls and provide a milestone, or milestones, for completing the corrective
action as discussed previously. The recommendation is open until OSWER provides more
information on and implements the corrective action.


  •	 OSWER/OSRTI is in the preliminary stages of updating the January 2000 Close Out
     Procedures for National Priorities List Sites (OSWER Directive 9320.2-09A-P).
     Chapters 5 and 6 document site deletion and partial deletion processes. Changes will be
     made to these chapters to clarify deletion requirements, update deletion docket
     requirements, update the deletion document review process to incorporate the
     Headquarters concurrence role, and provide updated deletion templates.




                                              38 

                                                                                    08-P-0235 





OIG Response

OSWER’s plan to update the guidance meets the intent of our recommendation. The
revisions to the guidance should assist the Agency with ensuring deletion decisions and
supporting documentation meet the criteria specified in EPA guidance and the NCP. In its
response to the final report, OSWER will need to provide a milestone for completing the
guidance. The recommendation is open until OSWER provides a milestone date and
completes the corrective action.


  •	 OSWER continues to provide training nationwide on EPA’s deletion guidance to regions.
     Deletion training was provided to Region 9 in January 2008, in addition to the training
     provided to Regions 1 and 7 in Fiscal Year 2007, as noted in the draft report.


OIG Response

OSWER’s training activities should assist the Agency with ensuring deletion decisions and
supporting documentation meet the criteria specified in EPA guidance and the NCP. We
consider this corrective action as completed. Therefore, OSWER does not need to provide
additional details in its response to the final report.



CONCLUSION

If you have any questions about these comments, please contact Elizabeth Southerland at 703­
 603-8855, or southerland.elizabeth@epa.gov. We look forward to receipt of the final report.




                                             39 

                                                                                       08-P-0235 



              UNITED STATES ENVIRONMENTAL PROTECTION AGENCY 

                                     REGION III 

                                 1650 Arch Street 

                      Philadelphia, Pennsylvania 19103-2029 





MEMORANDUM

TO: 	            Carolyn Copper
                 Director of Program Evaluation
                 Hazardous Site Issues
                 Office of Inspector General

FROM: 	          Donald Welsh, Regional Administrator
                 Office of the Regional Administrator (3RA00)

SUBJECT:	        Second Response to the Draft Evaluation Report: EPA Decisions to
                 Delete Superfund Sites Should Undergo Quality Assurance Review

Attached is the second response on the draft OIG evaluation report, EPA Decisions to Delete
Superfund Sites Should Undergo Quality Assurance Review. Outlined below are the clarifying
responses to the Office of Inspector General’s (“OIG”) Draft Evaluation Report dated May 8,
2008. The OIG’s Report found that in two of the four Region 3 Sites reviewed, the deletion was
inconsistent with EPA guidance and criteria. The purpose of this memorandum is to provide a
written response to the OIG’s proposed recommendations by Chapter with respect to two Region
3 Sites, McAdoo Associates and York County Solid Waste and Refuse Authority Landfill.
Region 3 has previously responded to the OIG’s Discussion Draft Findings and Region 3 staff
and managers have had multiple follow-up discussions with respect to these findings which has
lead to the OIG’s Draft Evaluation Report. Therefore, the Region does not believe any further
response to the OIG’s findings is necessary.

Chapter 2: Superfund Site Deletions Have Not Always Been Consistent with EPA Criteria

2-2            Issue amendments to EPA’s ROD and the final close-out report that document the
               change in the remedy and provide appropriate support for the deletion decision for
               the McAdoo Associates site.

Response: 	    Regions 3 does not concur that a ROD Amendment is necessary or that the
               final closeout report should be amended. However, Region 3 is preparing a
               Second Explanation of Significant Differences that will document necessary
               changes to the remedy and clarify the information which supports the
               Region’s decision to delete the Site. Upon completion, the ESD will be placed
               in the Administrative Record and Deletion Docket for the Site. The planned
               completion date for the ESD is December 30, 2008.


                                               40 

                                                                                         08-P-0235 





 OIG Response

 We discussed Region 3’s response for Recommendation 2-2 with the Region’s managers
 and staff during July 2008. As a result of this discussion, the Region agreed to provide the
 OIG with a revised response, which it did on August 6, 2008. This revised response and
 our evaluation of it are on pages 46 and 47 of this report.


2-3           Complete a deletion docket for the YCSWRA site and place copies in appropriate
              regional and local repositories. Also, complete a final close-out report for the Site
              after all response actions are successfully completed and cleanup goals are met as
              specified by EPA’s ROD

Response:     Region 3 concurs with this recommendation. Region 3 acknowledges that it
              was unable to locate the deletion docket for YCSWRA in the appropriate
              regional and local repositories and will ensure a complete docket will be
              placed no later than September 30, 2008. In addition, a Final Close Report
              will be completed and included as recommended by the OIG by September
              30, 2008.


 OIG Response

 Region 3’s planned corrective actions meet the intent of our recommendation. The
 recommendation is open with agreed-to actions pending.


2-4           Conduct an analysis to determine whether the current groundwater response
              action at the YCSWRA Site provides the same level of protection to human health
              and the environment as the response specified in EPA’s ROD prior to its
              modification in 1994. If the current response is less protective, reinstate
              appropriate response requirements in EPA’s ROD for the Site.

Response: 	   Region 3 concurs with this recommendation. As the OIG stated in their
              Report, Region 3 completed the scheduled Five Year Review for the Site in
              September 2007. In the September 2007 Five Year Review, Region 3
              deferred the protectiveness statement for the Site until further monitoring
              was conducted with respect to the surface water, sediments, wetlands, and
              vapor intrusion. EPA has met with the YCSWRA and they have agreed to
              conduct the necessary sampling. The sediment and surface water sampling is
              scheduled for June 2008. If the data indicate existing conditions are not
              protective, EPA will take the necessary remedial actions. With respect to the
              Vapor Intrusion sampling, the YCSWRA is preparing a workplan and is
              currently working with the residents to get access to conduct the sampling. A




                                               41 

                                                                                       08-P-0235


              final schedule for the sampling has not yet been determined and will be
              provided when access to the residential homes has been acquired.


 OIG Response

 Although Region 3 concurred with the recommendation, its planned actions do not
 completely address the recommended corrective action. We also note that the modification
 date for the ROD was incorrect in the draft report. The Region issued the modification in
 2004 rather than 1994 as cited in the report. Therefore, we made appropriate revisions to
 the final report to correct this error. The Region’s planned actions address monitoring and
 vapor intrusion issues identified by the 2007 5-year review. The 2007 5-year review did not
 evaluate whether the current response action for the groundwater contamination at the site is
 protective to human health and the environment. In its response to the final report, the
 Region will need to describe actions taken or planned to ensure that the groundwater
 response provides the same level of protection to human health and the environment as the
 response specified in EPA’s ROD prior to its modification. The Region will also need to
 provide a milestone, or milestones, for completing the recommended corrective action. The
 recommendation is open until the Region provides more information on and completes the
 corrective actions.


2-5           Correct the inconsistency between the cleanup goals for the current groundwater
              response for the YCSWRA site and the cleanup requirements specified in EPA’s
              ROD.

Response:     Region 3 concurs that there is an inconsistency between the cleanup goals
              required by the 1984 agreement between the YCSWRA and PADER (1984
              PADER Agreement) and EPA’s ROD. Region 3 is currently reviewing the
              analytical data/sampling results to ensure that all chemicals of concern are
              being monitored. In the event that there are still chemicals of concern
              present in groundwater above the cleanup standards defined by the ROD,
              EPA will determine if a decision document is necessary to correct this
              inconsistency.


 OIG Response

 Region 3’s corrective actions that are in progress and planned meet the intent of our
 recommendation. In its response to the final report, the Region will need to provide a
 milestone, or milestones, for completing the corrective actions. The recommendation is
 open with agreed-to actions pending.


2-6           Resolve the groundwater monitoring and vapor intrusion issues discussed in
              EPA’s 2007 5-year review report for the Site by no later than December 2009.



                                               42
                                                                                        08-P-0235


              Take appropriate corrective actions to address any unacceptable human health
              and/or ecological risks identified from the groundwater monitoring and vapor
              intrusion investigation.

Response: 	   EPA concurs and is working with the YCSWRA to address the FYR
              recommendations.

 OIG Response

 Region 3’s corrective actions taken and planned that are discussed under Recommendation
 2-4 meet the intent of this recommendation. The Region will need to provide a milestone, or
 milestones, for completing the vapor intrusion assessment. The recommendation is open
 with agreed-to actions pending.



2-7           Increase EPA’s monitoring activities for the YCSWRA Site to ensure that the
              remedy is progressing towards meeting the cleanup requirements specified by
              EPA’s ROD and remains protective of human health and the environment. At a
              minimum, annually review groundwater monitoring data and conduct Site visits
              to verify cleanup progress, compliance with cleanup requirements, and Site
              conditions.

Response: 	 Region 3 does not concur with this recommendation. Region 3 does not
            believe that additional oversight beyond what currently exists is necessary.
            The YCSWRA is very responsive to Region 3 and has provided the
            monitoring data required by the approved Response Action Plan. EPA has
            conducted the routine Five Year Reviews at the Site and has identified issues
            which will be acted upon.


 OIG Response

 We discussed Region 3’s response for Recommendation 2-7 with the Region’s managers
 and staff during July 2008. As a result of this discussion, the Region agreed to provide the
 OIG with a revised response, which it did on August 6, 2008. This revised response and
 our evaluation of it are on page 47 of this report.


Chapter 3:    EPA Has Not Ensured Appropriate Response Actions Have Been
              Implemented at Some Deleted Sites

3-1           Work with the State of Pennsylvania to ensure that necessary response actions are
              taken under the appropriate regulatory authority to address groundwater
              contamination at Operable Unit 2 of the McAdoo Associates site. The response




                                               43 

                                                                                        08-P-0235 



              actions should include appropriate controls limiting human exposure to the
              groundwater.

Response: 	   Region 3 concurs with this recommendation. EPA issued recommendations
              in the 2005 Five Year Review for the McAdoo Site, and is currently working
              with PADEP to implement those recommendations. PADEP is currently
              performing an investigation of the remaining petroleum contamination
              present at the Site. Once the extent of the petroleum contamination is
              determined, PADEP will assess whether or not vapor intrusion may be an
              issue at the Site. Although institutional controls do exist in the form of a
              Protective Purchaser Agreement established for the Site between EPA and
              the current property owner, EPA will work with the Office of Regional
              Counsel, PADEP and the property owner to determine what additional
              controls are necessary and ensure that they are established, as appropriate.
              A meeting to discuss the appropriate controls is scheduled for July 2008 with
              the Office of Regional Counsel.

 OIG Response

 Region 3’s comments and corrective actions that are in process and planned do not
 completely address the recommendation. The Region’s comments do not describe how
 vapor intrusion will be addressed if the Pennsylvania Department of Environmental
 Protection’s (PADEP’s) investigation determines that a response is necessary to protect the
 health of residents living near the site. The comments also do not include a milestone or
 milestones for completing the corrective actions. The Region will need to provide
 additional details on actions taken and/or planned, along with a milestone, or milestones, for
 completing the corrective actions in its response to the final report. The recommendation is
 open until the Region implements the corrective actions.


3-2           Re-evaluate groundwater monitoring requirements at Operable Unit 2 of the
              McAdoo Associates site under the appropriate regulatory authority. Require that
              the monitoring program include a sufficient number of monitoring wells to fully
              characterize the groundwater contamination.

Response: 	   Region 3 concurs with this recommendation. As described above, EPA has
              been working with PADEP to evaluate groundwater contamination at the
              Blaine Street portion of the Site. As Region 3 has previously stated in the
              deletion documents and has recently confirmed with analytical data, the
              remaining contamination at the Site is petroleum related with the exception
              of Bis (2-ethylhexyl) phthalate which occurs sporadically in groundwater
              above the cleanup standard in the ROD. EPA believes that there is already a
              sufficient number of monitoring wells to fully characterize the Bis (2-
              ethylhexyl) phthalate groundwater contamination at the Blaine Street




                                               44 

                                                                                         08-P-0235


              property. However, PADEP may determine that additional monitoring
              wells are necessary to define the extent of the petroleum contamination.


 OIG Response

 Region 3’s corrective actions that are in process and planned do not completely address the
 recommendation. The Region’s comments do not describe how it determined that there are
 sufficient monitoring wells to characterize Bis (2-ethylhexyl) phthalate in the groundwater.
 In its response to the final report, the Region will need to provide additional details on
 actions taken and/or planned to address the recommendation. The final response will also
 need to include a milestone, or milestones, for completing the corrective actions. The
 recommendation is open until the Region provides more information on and the corrective
 actions and the actions are fully implemented.


3-3           Require that any changes to the current monitoring requirements specified in the
              ROD for Operable Unit 2 of the McAdoo Associates site be incorporated into
              appropriate decision document.

Response:     Region 3 concurs and as previously stated intends to clarify groundwater
              monitoring requirements into the Second Explanation of Significant
              Differences. Region 3 plans to issue the Second Explanation of Significant
              Differences by December 30, 2008.


 OIG Response

 Region 3’s planned corrective action meets the intent of our recommendation. This
 recommendation is open until the Region incorporates changes to the current monitoring
 requirements into the Explanation of Significant Differences.


3-4           Conduct visits to Operable Unit 2 of the McAdoo Associates site at least annually
              to verify that site conditions remain protective to human health and the
              environment.

Response:     Region 3 concurs with the OIG’s recommendation.


 OIG Response

 Region 3’s planned corrective actions meet the intent of our recommendation. However,
 the Region will need to provide a schedule for completing the site visits in its response to
 the final report. The recommendation is open with agreed-to actions pending.




                                                45 

                                                                                      08-P-0235 



             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY 

                                    REGION III 

                                1650 Arch Street 

                     Philadelphia, Pennsylvania 19103-2029 





MEMORANDUM

TO: 	            Carolyn Copper
                 Director of Program Evaluation
                 Hazardous Site Issues
                 Office of Inspector General

FROM: 	          Donald Welsh, Regional Administrator
                 Office of the Regional Administrator (3RA00)

SUBJECT:	        3rd Response to the Draft Evaluation Report: EPA Decisions to Delete
                 Superfund Sites Should Undergo Quality Assurance Review

As you know the Region has responded to the Office of Inspector General’s (“OIG”) Draft
Evaluation Report dated May 8, 2008 on two previous occasions, June 4, 2008 and June 20,
2008. The OIG’s Report found that in two of the four Region 3 Sites reviewed, the deletion was
inconsistent with EPA guidance and criteria. The purpose of this memorandum is to provide a
revised written response to two of the OIG’s proposed recommendations. I hope that this final
clarification addresses the OIG’s questions regarding the Region 3 response.

Chapter 2: Superfund Site Deletions Have Not Always Been Consistent with EPA Criteria

2-2           Issue amendments to EPA’s ROD and the final close-out report that document the
              change in the remedy and provide appropriate support for the deletion decision for
              the McAdoo Associates site.

Response: 	 Region 3 concurs that a remedy modification is necessary and is
            preparing a Second Explanation of Significant Differences that will
            document necessary changes to the remedy and clarify the
            information which supports the Region’s decision to delete the Site.
            This Second ESD will include a 30-day Public Comment Period, and
            will be also be submitted to PADEP for concurrence. Additionally,
            Region 3 will prepare an attachment to the Final Close-Out Report
            that will provide supporting documentation and clarify the Region’s
            decision to delete the site.




                                              46 

                                                                                          08-P-0235 





      OIG Response

      Region 3’s corrective actions that are in progress and planned meet the intent of our
      recommendation. In its response to the final report, the Region will need to provide a
      milestone, or milestones, for completing the Explanation of Significant Differences after the
      public comment period and attachment to the final close-out report. The recommendation is
      open with agreed-to actions pending.



2-7              Increase EPA’s monitoring activities for the YCSWRA Site to ensure that the
                 remedy is progressing towards meeting the cleanup requirements specified by
                 EPA’s ROD and remains protective of human health and the environment. At a
                 minimum, annually review groundwater monitoring data and conduct Site visits
                 to verify cleanup progress, compliance with cleanup requirements, and Site
                 conditions.

Response: 	 Region 3 concurs, and has implemented the IG’s recommendations. The
            YCSWRA has been very responsive to requests for additional monitoring.
            EPA has conducted the routine Five Year Reviews at the Site and has
            identified issues which will be acted upon to ensure the remedy remains
            protective and is functioning as intended by the ROD. The Region is in the
            process of implementing the recommendations that were generated as a
            result of the Five Year Review and will document their outcome in an
            Addendum to the Five Year Review Report.

      OIG Response

      Region 3’s corrective actions that are in progress and planned meet the intent of our
      recommendation. In its response to the final report, the Region will need to provide an
      implementation date for the annual review of the groundwater monitoring data and a
      schedule for its visits to the YCSWRA site. The recommendation is open until the
      corrective actions are fully implemented.




                                                  47 

                                                                                       08-P-0235 



                                                                  R-19J        



MEMORANDUM

SUBJECT:      U.S. EPA, Region 5 Response to the Office of Inspector General’s
              May 8, 2008 Draft Evaluation Report: “EPA Decisions to Delete Superfund Sites
              Should Undergo Quality Assurance Review”

   FROM:       Bharat Mathur 

               Acting Regional Administrator 


       TO:     Carolyn Copper 

               Director of Program Evaluation 

               Hazardous Waste Site Issues 

               Office of Inspector General 




       Thank you for giving the U.S. Environmental Protection Agency, Region 5 the
opportunity to comment on the May 8, 2008, draft of the Office of Inspector General’s
Evaluation Report titled “EPA Decisions to Delete Superfund Sites Should Undergo Quality
Assurance Review”, transmitted to our office by electronic mail on May 8, 2008, by Michael
Owen of your office. A part of your evaluation focused on the deletion of the Kummer Sanitary
Landfill Site from the National Priorities List (NPL) in 1996. We are responding to the findings
and recommendations cited in your draft evaluation report.

        It continues to be the Region’s position that the Kummer Sanitary Landfill Site was
appropriately deleted from the NPL in accordance with the “Agreement Between the United
States Environmental Protection Agency and the Minnesota Pollution Control Agency Regarding
Qualified Municipal Waste Landfills Under the Minnesota Landfill Cleanup Law” signed by
EPA, Region 5 and the Minnesota Pollution Control Agency (MPCA) in August of 1995
(Minnesota Landfill Agreement or Agreement).

        Under the terms of the Minnesota Landfill Agreement, EPA proposed the deletion of
landfills that would be addressed by the State of Minnesota under the Minnesota Landfill
Cleanup Law, Minn. Stat. §§ 115B.39 to 115B.46. Section I of the Agreement sets out a specific
process and schedule for deletion of qualified landfills from the NPL. To date, EPA has deleted
nine Minnesota landfills in accordance with the Agreement. Prior to Region 5's execution of the
Agreement, its terms were reviewed and approved by the Department of Justice, and EPA’s
Office of Enforcement and Compliance Assurance (OECA) and Office of Solid Waste and
Emergency Response (OSWER). The provisions concerning deletion from the NPL were a focal
point for OECA and OSWER review. In August 1995, OSWER and OECA issued a joint
memorandum which endorsed the NPL deletion provisions, explaining that “[n]o further
response under CERCLA will be appropriate at any of these sites because the State of Minnesota




                                               48 

                                                                                         08-P-0235 



has guaranteed to take any further response actions necessary under the Minnesota Landfill
Cleanup Law.”

         The OIG Report asserts that Region 5 was unable to ensure that the response actions at
the Kummer Sanitary Landfill Site provide long-term protection to human health and the
environment. Region 5 disagrees with this conclusion. Long-term protection to human health
and the environment was assured by virtue of the designation of the Kummer Sanitary Landfill
Site as a qualified landfill under the MPCA Closed Landfill Program. That designation meant
that all further response at the Kummer Sanitary Landfill Site would be conducted by MPCA
using funds supplied under the Minnesota Landfill Cleanup Law. EPA policy acknowledges
that, even if cleanup at a site is incomplete, NPL deletion is appropriate where another authority
can be used to bring about remediation at the site and further CERCLA action is not needed.
That is the case at the Kummer Sanitary Landfill Site. EPA’s deferral of the Site to the MPCA
Closed Landfill Program assumed that implementation of a remedy at the Kummer Sanitary
Landfill Site and future remedial decisions concerning the Site would be the responsibility of
MPCA. EPA’s role would be to periodically assess the remedy through the Five-Year Review
process.


  OIG Response

  Under the 1995 the Minnesota Landfill Agreement, the State was required to
  implement the groundwater response specified by EPA’s ROD after the site
  was deleted from the NPL. The ROD disclosed that a response was necessary
  to protect human health and the environment. Because the State had not
  implemented the active gas extraction system specified by the ROD, we were
  not able to determine whether the State’s response has been at least as
  protective as the remedy required by the ROD. We also found that the
  Region’s periodic assessments of the State’s response actions had not ensured
  that the State had fully implemented the groundwater remedy specified by the
  ROD.


        The OIG Report notes that the remedy that MPCA is currently implementing at the
Kummer Sanitary Landfill Site differs from the one selected in a Record of Decision (ROD)
EPA issued in 1995. The Report views this as a failure to ensure that MPCA fully implement the
groundwater remedy specified by EPA’s ROD. Region 5 views this rather as a failure to amend
the ROD to reflect changes that both MPCA and the Region agreed were appropriate. However,
Region 5 does agree that the ROD and the remedy should match, and will take steps to bring this
about, as described below.




                                                49 

                                                                                         08-P-0235 





 OIG Response

 Our review of the Region’s site files during the evaluation did not reveal any
 documentation showing that EPA and the State had reached a formal agreement to
 implement a groundwater response that was different from the remedy required by the
 ROD. We also agree that the groundwater response at the site should match
 requirements specified by the ROD.



Response to OIG Recommendations:

Recommendation 2-8: 

Complete a deletion docket for the Kummer Sanitary Landfill Site and place copies in 

appropriate regional and local repositories. 


A deletion docket for the Kummer Sanitary Landfill Site has been completed by EPA,
Region 5, with copies placed at the EPA Region 5 Docket Office and at the local
information repository located at the Bemidji City Library, 6th and Beltrami, Bemidji,
Minnesota 56601.

 OIG Response

 Region 5’s corrective action meets the intent of our recommendation. In its
 response to the final report, the Region will need to provide the completion date
 for the deletion docket and the date or dates the docket was placed in the regional
 and local repositories. The recommendation is open until the Region provides this
 milestone information.


Recommendation 3-5:
Ensure that EPA’s 5-year review scheduled for March 2008, evaluates the protectiveness of the
groundwater remedy at the Kummer Sanitary Landfill Site. Document any changes to the
remedy for groundwater through an appropriate ROD revision after the 2008 5-year review is
completed.

The Second Five-Year Review for the Kummer Sanitary Landfill Site was completed on
March 13, 2008. The Five-Year Review evaluated the protectiveness of the groundwater
remedy and found that natural attenuation is successfully reducing the concentrations of
the remaining chemicals of concern that still exceed Safe Drinking Water Act Maximum
Contaminant Levels and that the remedy is considered to be protective of human health
and the environment in the short term. Long-term protectiveness requires
implementation, maintenance, and compliance with groundwater use restrictions and other
institutional controls until the cleanup standards are met. In addition, the Five-Year
Review included as a recommendation and follow-up action the issuance of a decision


                                               50 

                                                                                       08-P-0235


document within a year, identifying Monitored Natural Attenuation as the site
groundwater remedy.

 OIG Response

 Region 5’s corrective actions taken and planned meet the intent of our
 recommendation. However, Region 5 will need to provide a specific milestone for
 issuing the revision to the ROD in its response to the final report. The
 recommendation is open until the Region provides the milestone information and
 issues the revision to the ROD.


Recommendation 3-6: 

Require the State of Minnesota to implement, operate, and maintain the groundwater remedy 

specified by the ROD for the groundwater at the Kummer Sanitary Landfill Site. 


EPA, Region 5 has been reviewing the cleanup status of the Kummer Sanitary Landfill
Site, and the status of all sites that were deleted from the NPL under the 1995 Agreement
between EPA and the State of Minnesota regarding qualified municipal landfills. MPCA
sends annual monitoring reports to EPA, Region 5 and Five-Year Reviews are conducted to
ensure the protectiveness of the selected remedy. Paragraph II.G. of the agreement
between EPA and the State, “Application of CERCLA at Qualified Landfills with Notice of
Compliance,” states that “EPA agrees to refrain from taking or requiring response action
or commencing a PRP search at a qualified landfill for which a notice of compliance has
been issued under the Act, unless EPA finds that the State is not carrying out its response
action responsibilities under the Act at the qualified landfill in a manner that will result in
response actions that are at least as protective of human health and the environment as
response actions required under CERCLA.” EPA, Region 5 will continue to coordinate
with MPCA on the status of the Kummer Sanitary Landfill Site, and all deleted NPL sites
included in their Closed Landfill Program.


 OIG Response

 We contacted the Region and requested clarification on its comments. We also explained to
 the Region that requiring the implementation of a remedy specified by an appropriate
 revised ROD would meet the intent of the recommendation. After this explanation, the
 Region informed us on July 17, 2008, that it agreed with the recommendation. The Region
 also stated on that same date that, as recommended by the March 2008 5-year review, it will
 be working with the State of Minnesota to modify the latest ROD to reflect the remedy
 currently being implemented at the site. In its response to the final report, the Region will
 need to provide a specific milestone for issuing the revision to the ROD. The
 recommendation is open until the Region issues the revision to the ROD.




                                               51 

                                                                                     08-P-0235 



Thank you once again for the opportunity to respond to the draft of the OIG Evaluation Report
titled “EPA Decisions to Delete Superfund Sites Should Undergo Quality Assurance Review”. If
you have any questions about this response, please contact Gladys Beard of my staff, the Region
5 Deletions Coordinator at 312-886-7253, or Donald Bruce of my staff at 312-886-7241.

cc: 	Susan Parker Bodine, OSWER
    Barry Breen, OSWER
    James Woolford, OSRTI
    Donald S. Welsh, Region 3




                                              52 

                                                                                  08-P-0235




                                                                              Appendix D

                                    Distribution

Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Director, Office of Regional Operations
Regional Administrator, Region 3
Regional Administrator, Region 5
Office of General Counsel
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Region 3
Audit Follow-up Coordinator, Region 5
Deputy Inspector General




                                            53 

